Appendix A-1
Filed 8/4/2020
PUBLISH
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
____________________________
KANSAS NATURAL RESOURCE
COALITION,
Plaintiff - Appellant,
No. 19-3108
v.
UNITED STATES DEPARTMENT
OF INTERIOR; DAVID
BERNHARDT, in his official
capacity as Secretary of the
Department of the Interior;
UNITED STATES FISH AND
WILDLIFE SERVICE; MARGARET
EVERSON, in her official capacity
as Principal Deputy Director of the
U.S. Fish and Wildlife Service,
Defendants - Appellees.
____________________________

Appeal from the United States District Court
for the District of Kansas
(D.C. No. 6:18-CV-01114-EFM-GEB)
____________________________

Appendix A-2
Jonathan Wood, Pacific Legal Foundation, Arlington,
Virginia (Jeffrey W. McCoy and Caleb R. Trotter,
Pacific Legal Foundation, Sacramento, California;
and Kenneth Estes, Lakin, Kansas, with him on the
briefs), for Plaintiff - Appellant.
Brian C. Toth, Attorney, Environment and Natural
Resources Division, United States Department of
Justice, Washington, D.C. (Jeffrey Bossert Clark,
Assistant Attorney General, Eric Grant, Deputy
Assistant Attorney General, Bridget K. McNeil,
Attorney, Environment and Natural Resources
Division, United States Department of Justice,
Washington, D.C.; Joan R. Goldfarb and Maria E.
Lurie, Of Counsel, Office of the Solicitor, United
States Department of Interior, Washington, D.C.,
with him on the brief), for Defendants - Appellees.
____________________________
Before BRISCOE, LUCERO, and McHUGH, Circuit
Judges.
____________________________
McHUGH, Circuit Judge.
____________________________
In this Administrative Procedure Act (“APA”)
case, plaintiff Kansas Natural Resource Coalition
(“KNRC”) seeks an order enjoining the United States
Department of the Interior (“DOI”) to submit its rules
to Congress, pursuant to the Congressional Review
Act (“CRA”), before those rules “take effect.” 5 U.S.C.
§ 801(a)(1)(A). The district court dismissed for lack of
subject matter jurisdiction because the CRA contains
a provision prohibiting judicial review of any
“omission under this chapter.” 5 U.S.C. § 805. We

Appendix A-3
affirm based on KNRC’s lack of Article III standing.
We further decline to remand the case so that KNRC
may amend its complaint because, in any event, the
district court is correct that it lacks subject matter
jurisdiction.
I. BACKGROUND
A. Factual History
1. The Congressional Review Act
The CRA, enacted as part of the Small Business
Regulatory Enforcement Fairness Act of 1996, Pub. L.
No. 104-121, §§ 251–53, 110 Stat. 857, 868–74
(codified as amended at 5 U.S.C. §§ 801–08), provides:
Before a rule can take effect, the Federal
agency promulgating such rule shall submit
to each House of the Congress and to the
Comptroller General a report containing—
(i) a copy of the rule; (ii) a concise general
statement relating to the rule, including
whether it is a major rule; and (iii) the
proposed effective date of the rule.
5 U.S.C. § 801(a)(1)(A).
The CRA contemplates that, with respect to any
rule, Congress may enact “a joint resolution of
disapproval.”1 Id. § 801(b)(1). If Congress passes and
the President signs such a resolution, the rule “shall
not take effect (or continue).” Id. Thereafter, the
disapproved-of rule
1 Section 802 of the CRA—enacted “as an exercise of the
rulemaking power of the Senate and House of Representatives,
respectively”—provides for special rules to streamline each
chamber’s consideration of a joint resolution of disapproval. 5
U.S.C. § 802(g)(1).

Appendix A-4
may not be reissued in substantially the same
form, and a new rule that is substantially the
same as such a rule may not be issued, unless
the reissued or new rule is specifically
authorized by a law enacted after the date of
the joint resolution disapproving the original
rule.
Id. § 801(b)(2).
The
CRA
further
provides
that
“[n]o
determination, finding, action, or omission under this
chapter shall be subject to judicial review.” Id. § 805.
The CRA also includes a severability clause that
states: “If any provision of this chapter or the
application of any provision of this chapter to any
person or circumstance, is held invalid, the
application of such provision to other persons or
circumstances, and the remainder of this chapter,
shall not be affected thereby.” Id. § 806(b). Moreover,
the CRA instructs that if Congress does not enact a
joint resolution of disapproval . . . , no court or agency
may infer any intent of the Congress from any action
or inaction of the Congress with regard to such rule,
related statute, or joint resolution of disapproval.” Id.
§ 801(g).
During floor debate on the CRA in the House of
Representatives, Congressman David M. McIntosh
stated as follows:
As the principal House sponsor of the
Congressional Review subtitle, I am very
proud that this bill will soon be sent to the
President again, and I hope signed by him
this time. The House and Senate passed an
earlier version of this subtitle as section 3006

Appendix A-5
of H.R. 2586, which was vetoed by the
President last November. Before it becomes
law, this bill will have passed the Senate at
least four times and passed the House at least
twice. In discussions with the Senate and
House co-sponsors this past week, we made
several changes to the version of this subtitle
that both bodies passed on November 9, 1995,
and the version that the Senate passed last
week. I will be happy to work with Chairman
HYDE and Chairman CLINGER on a
document that we can insert in the
CONGRESSIONAL RECORD at a later time
to serve as the equivalent of a floor managers’
statement. But because this bill will not likely
have a conference report or managers’
statement prior to passage, I offer the
following brief explanation for some of the
changes in the subtitle:
142 Cong. Rec. H3005 (daily ed. Mar. 28, 1996)
(emphasis added).
On April 18, 1996, almost three weeks after
passage of the CRA, Senator Don Nickles entered a
joint statement into the Congressional Record on
behalf of himself, Senator Harry Reid, and Senator
Ted Stevens that was “intended to provide guidance to
the agencies, the courts, and other interested parties
when interpreting the [CRA’s] terms.” 142 Cong. Rec.
S3683 (daily ed. Apr. 18, 1996).
That joint statement explained the meaning and
purpose of § 805, the CRA’s judicial review provision,
as follows:

Appendix A-6
Section 805 provides that a court may not
review any congressional or administrative
“determination, finding, action, or omission
under this chapter.” Thus, the major rule
determinations made by the Administrator of
the Office of Information and Regulatory
Affairs of the Office of Management and
Budget are not subject to judicial review. Nor
may a court review whether Congress
complied with the congressional review
procedures in this chapter. This latter
limitation on the scope of judicial review was
drafted in recognition of the constitutional
right of each House of Congress to “determine
the Rules of its Proceedings,” U.S. Const., art.
I, § 5, cl. 2, which includes being the final
arbiter of compliance with such Rules.
The limitation on a court’s review of
subsidiary determination or compliance with
congressional procedures, however, does not
bar a court from giving effect to a resolution
of disapproval that was enacted into law. A
court with proper jurisdiction may treat the
congressional enactment of a joint resolution
of disapproval as it would treat the enactment
of any other federal law. Thus, a court with
proper jurisdiction may review the resolution
of disapproval and the law that authorized
the disapproved rule to determine whether
the issuing agency has the legal authority to
issue a substantially different rule. The
language of subsection 801(g) is also
instructive. Subsection 801(g) prohibits a
court or agency from inferring any intent of
the Congress only when “Congress does not

Appendix A-7
enact a joint resolution of disapproval,” or by
implication, when it has not yet done so. In
deciding cases or controversies properly
before it, a court or agency must give effect to
the intent of the Congress when such a
resolution is enacted and becomes the law of
the land. The limitation on judicial review in
no way prohibits a court from determining
whether a rule is in effect. For example, the
authors expect that a court might recognize
that a rule has no legal effect due to the
operation of subsections 801(a)(1)(A) or
801(a)(3).
Id. at S3686. The next day, Congressman Henry J.
Hyde offered for the record in the House of
Representatives a statement that included the same
two paragraphs quoted above. 142 Cong. Rec. E577
(daily ed. Apr. 19, 1996).
In 2006, the House Judiciary Committee
published a report that referred to the Senators’ joint
statement—in a footnote—as “the most authoritative
contemporary understanding of the provisions of the
law.” Staff of H. Comm. on the Judiciary, Subcomm.
on Commercial & Admin. L., 109th Cong., Interim
Rep. on the Admin. Law, Process & Procedure Project
for the 21st Century 86 n.253 (Comm. Print 2006). But
the report also referred to the joint statement as “postenactment legislative history” that does not carry the
weight that committee report explanations and floor
debates provide.” Id.
2. The PECE Rule
The Endangered Species Act requires the
Secretary of Interior to “determine whether any

Appendix A-8
species is an endangered species or a threatened
species.” 16 U.S.C. § 1533(a)(1). In the course of
making these required determinations, Congress has
instructed the Secretary to take into account “those
efforts, if any, being made by any State or foreign
nation, or any political subdivision of a State or
foreign nation, to protect such species, whether by
predator control, protection of habitat and food
supply, or other conservation practices, within any
area under its jurisdiction, or on the high seas.” Id.
§ 1533(b)(1)(A).
On March 28, 2003, DOI—through the United
States Fish and Wildlife Service (“FWS”) and the
National Marine Fisheries Service—announced “a
final policy for the evaluation of conservation efforts
when making listing decisions” under the Endangered
Species Act. Policy for Evaluation of Conservation
Efforts When Making Listing Decisions, 68 Fed. Reg.
15,100, 15,100 (Mar. 28, 2003) (the “PECE Rule” or
“Rule”). The PECE Rule,2 issued with an effective date
of April 28, 2003, identifies criteria for DOI to “use in
determining whether formalized conservation efforts
that have yet to be implemented or to show
effectiveness contribute to making listing a species as
threatened or endangered unnecessary.” Id.
Those criteria are: “(1) [t]he certainty that the
conservation efforts will be implemented and (2) the
certainty that the efforts will be effective.” Id. at
15,101. The Rule also identifies factors DOI will
consider when assessing each of these criteria. See id.
at 15,114–15.

2 The PECE Rule is a “rule” as defined by the CRA. See 5 U.S.C.
§ 804(3).

Appendix A-9
KNRC alleges that DOI never submitted the
PECE Rule to Congress. Nevertheless, FWS treats the
Rule as if it is in effect.
3. The Lesser prairie-chicken
On December 11, 2012, DOI proposed listing the
lesser prairie-chicken as a threatened species under
the Endangered Species Act. See Listing the Lesser
Prairie-Chicken as a Threatened Species, 77 Fed. Reg.
73,826. In response, the Western Association of Fish
and Wildlife Agencies implemented a conservation
plan that it hoped would avoid the need for a listing.
Despite these efforts, on April 10, 2014, DOI
announced it was listing the lesser prairie-chicken as
threatened, effective May 12, 2014. See Determination
of Threatened Status for the Lesser Prairie-Chicken,
79 Fed. Reg. 19,973, 19,974 (the “listing decision”). On
September 1, 2015, the United States District Court
for the Western District of Texas vacated the listing
decision because DOI “failed to properly apply” the
PECE Rule. Permian Basin Petroleum Ass’n v. Dep’t
of the Interior, 127 F. Supp. 3d 700, 707 (W.D. Tex.
2015).3 On July 20, 2016, DOI complied with the
district court’s ruling and withdrew the listing
decision. See Lesser Prairie-Chicken Removed From

3 In its complaint and in its opening brief, KNRC represents that
it participated” as amicus in the Permian Basin litigation. App.
at 19; see also Appellant Br. at 13. That is not completely
accurate. In the Permian Basin case, KNRC filed a motion for
leave to file an amicus brief in support of plaintiffs’ motion for
summary judgment. The district court denied that motion,
however, after finding KNRC’s amicus brief “unnecessary to
adequately evaluate the merits of the case.” Order, Permian
Basin Petroleum Ass’n v. Dep’t of the Interior, No. MO-14-CV-050
(W.D. Tex. May 26, 2015), ECF No. 71.

Appendix A-10
the List of Endangered and Threatened Wildlife, 81
Fed. Reg. 47,047.
On September 8, 2016, several nonprofits
petitioned DOI to list the lesser prairie-chicken as
endangered. On November 30, 2016, DOI determined
that an emergency listing was not warranted, but also
initiated a status review because the petition
presented “substantial scientific or commercial
information indicating that listing the lesser prairiechicken may be warranted.” Endangered and
Threatened Wildlife and Plants; 90-Day Findings on
Three Petitions, 81 Fed. Reg. 86,315, 86,317.
On June 12, 2019, the petitioner-nonprofits sued
DOI in the United States District Court for the
District of Columbia for failing to publish a complete
finding on whether listing of the lesser prairie chicken
is warranted. Complaint, Defs. of Wildlife v.
Bernhardt, No. 1:19-cv-01709-RC (D.D.C. June 12,
2019), ECF No. 1. On September 16, 2019, the district
court approved a settlement agreement whereby DOI
agreed to publish a new 12-month finding on whether
listing is warranted no later than May 26, 2021. See
Stipulated Settlement Agreement, Defs. of Wildlife
(D.D.C. Sept. 16, 2019), ECF No. 7, at 2.
4. KNRC’s Conservation Plan
KNRC is “an organization of county governments
in western Kansas that promotes local government
participation in federal and state policy on
conservation and natural resource issues.” App. at 8.
It is funded and governed by member counties.
In 2013, KNRC developed its own conservation
plan for the lesser prairie-chicken, which all its
member counties adopted. KNRC’s plan “calls for

Appendix A-11
counties to develop and implement policies to control
invasive species that encroach on lesser prairiechicken habitat, to promote sustainable grazing, to
better mark fences to prevent entanglement or injury,
and to encourage habitat restoration.” App. at 21.
Because DOI has not submitted the PECE Rule to
Congress, KNRC alleges the Rule has no lawful effect.
And because the Rule is not legally effective, KNRC
and its member counties claim they may not
beneficially rely on the Rule in implementing KNRC’s
lesser prairie-chicken conservation plan. This
allegedly puts conservation agreement participants
“in a bind: they must show that their plans are certain
to be implemented and effective but the failure to
submit the PECE Rule undermines the incentives
necessary to achieve that certainty.” App. at 17–18;
see also App. at 21–22.
B. Procedural History
On April 10, 2018, KNRC filed a complaint for
declaratory and injunctive relief against DOI, the
Secretary of Interior, FWS, and the Principal Deputy
Director of FWS in the United States District Court
for the District of Kansas. The complaint asserted a
single claim for relief under the APA, based on the
theory that DOI’s ongoing failure to submit the PECE
Rule to Congress constitutes “agency action
unlawfully withheld or unreasonably delayed.” App.
at 23 (quoting 5 U.S.C. § 706(1)). KNRC requested:
• “a declaration that submission of the rule
under the [CRA] is agency action
unlawfully withheld or unreasonably
delayed;”

Appendix A-12
• “a declaration that [DOI] must submit the
rule to Congress without delay;”
• “an injunction requiring [DOI] to submit the
rule to Congress under the CRA];” and
• “an award of KNRC’s cost of litigation.”
App. at 23–24.
DOI moved to dismiss the complaint, asserting
that (1) KNRC lacks Article III standing; (2) the
limitations period has expired; and (3) 5 U.S.C. § 805
precludes judicial review of DOI’s failure to submit the
PECE Rule to Congress.
On April 8, 2019, the district court granted DOI’s
motion based solely on its judicial review argument.
Specifically, the district court found the “plain
language” of 5 U.S.C. § 805 “prohibits judicial review”
of DOI’s failure to send the PECE Rule to Congress.
App. at 31. It therefore found it “unnecessary to
consider the legislative history.” App. at 35. In
addition, the district court relied on a footnote in our
decision in Via Christi Regional Medical Center, Inc.
v. Leavitt, 509 F.3d 1259, 1271 n.11 (10th Cir. 2007),
stating that the CRA “specifically precludes judicial
review of an agency’s compliance with its terms.” See
App. at 33 & n.30.
The district court entered judgment on April 10,
2019. KNRC timely filed a notice of appeal on May 23,
2019.
II. DISCUSSION
We begin our analysis by explaining that KNRC
has not plausibly alleged Article III standing. In the
interest of judicial economy, however, we then proceed
to the question of subject matter jurisdiction. See

Appendix A-13
Sinochem Int’l Co. v. Malaysia Int’l Shipping Corp.,
549 U.S. 422, 431 (2007) (“[T]here is no mandatory
‘sequencing of jurisdictional issues.’” (quoting
Ruhrgas AG v. Marathon Oil Co., 526 U.S. 574, 584
(1999))). Because we agree with the district court that
it lacked subject matter jurisdiction, we decline to
remand for the purpose of allowing KNRC to seek
leave to amend the complaint to cure the standing
defect. Instead, we affirm the district court’s order
dismissing the complaint.
A. Article III standing.
The Constitution extends the “judicial Power”
only to “Cases” and Controversies.” U.S. Const. art.
III, § 2. To establish a case or controversy, a plaintiff
must possess standing to sue. See Spokeo, Inc. v.
Robins, 136 S. Ct. 1540, 1547 (2016). “The plaintiff
must have (1) suffered an injury in fact, (2) that is
fairly traceable to the challenged conduct of the
defendant, and (3) that is likely to be redressed by a
favorable judicial decision.” Id.
DOI disputes that KNRC has alleged an injury in
fact. “To establish injury in fact, a plaintiff must show
that he or she suffered ‘an invasion of a legally
protected interest’ that is ‘concrete and particularized’
and ‘actual or imminent, not conjectural or
hypothetical.’” Id. at 1548 (quoting Lujan v. Defs. of
Wildlife, 504 U.S. 555, 560 (1992)). For an injury to be
concrete, “it must actually exist.” Id. “For an injury to
be ‘particularized,’ it ‘must affect the plaintiff in a
personal and individual way.’” Id. (quoting Lujan, 504
U.S. at 560 n.1). And for an injury to be imminent, it
“must be ‘certainly impending.’” COPE v. Kan. State
Bd. of Educ., 821 F.3d 1215, 1222 (10th Cir. 2016)

Appendix A-14
(quoting Clapper v. Amnesty Int’l USA, 568 U.S. 398,
409 (2013)).
At the pleading stage, general factual allegations
of injury resulting from the defendant’s conduct may
suffice.” Lujan, 504 U.S. at 561. “However,
‘[t]hreadbare recitals of the elements of a cause of
action, supported by mere conclusory statements, do
not suffice.’” COPE, 821 F.3d at 1221 (alteration in
original) (quoting Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009)).
The complaint alleges that DOI’s ongoing
violation of the CRA “undermines” KNRC’s
conservation plan by creating uncertainty. App. at 22.
In KNRC’s view, this allegation encompasses four
possible injuries. First, KNRC claims it is injured
because it cannot rely on the PECE Rule until the
Rule takes effect, and the Rule cannot take effect
until it is submitted to Congress. See 5 U.S.C.
§ 801(a)(1)(A). Second, KNRC asserts injury because
it cannot rely on the PECE Rule until the time for a
joint resolution of disapproval expires, and the time to
consider a joint resolution of disapproval does not
start to run until DOI submits the Rule to Congress.
See id. § 802(b)(1). Third, KNRC argues it will be
injured because DOI will soon consider whether to list
the lesser prairie-chicken, and the status of the PECE
Rule will influence DOI’s analysis. And fourth, KNRC
contends it will be injured if DOI lists the lesser
prairie-chicken without properly applying the PECE
Rule. We address these theories in the order
presented.

Appendix A-15
1. KNRC’s First Theory: The Impact of a Rule
Not Lawfully in Effect.
KNRC’s first theory of standing is that it cannot
rely on the PECE Rule in implementing its
conservation plan, because the Rule has not lawfully
taken effect. This, in turn, “undermines the incentives
for counties and property owners to participate in
KNRC’s plan.” App. at 22. According to KNRC,
certainty is “essential” because preparing a
conservation plan requires the commitment of vast
resources.” App. at 17.
KNRC has not alleged a concrete injury. Based on
the complaint, it does not appear that any county or
property owner has refused to participate in KNRC’s
conservation plan, due to uncertainty over the PECE
Rule or for any other reason. In fact, KNRC fails to
allege that a county or property owner has even
expressed concerns over the Rule’s validity. This
deficiency, coupled with the fact that KNRC
specifically alleges its plan has been adopted by “its 32
member counties,” App. at 8, means the complaint
does not allege any tangible harm KNRC is currently
suffering due to DOI’s conduct. To the extent KNRC
claims injury by the possibility that a court might
someday find the PECE Rule invalid under the CRA,
such an injury is speculative.
KNRC alleges in general terms that, “to provide
the certainty that the conservation efforts called for in
the plan will be implemented, participating counties
and property owners must have confidence that the
PECE Rule is lawfully in effect.” App. at 21. But, to
reiterate, KNRC does not allege that anyone besides
KNRC itself— in this lawsuit—has exhibited any lack
of confidence in the Rule. And the complaint describes

Appendix A-16
counties’ and property owners’ “incentives” without
alleging that any of them is having doubts about
participating in KNRC’s conservation plan. App. at
22.4
To overcome these shortcomings in the complaint,
KNRC analogizes its situation to that of a petitioner
seeking a required response from an agency. See
Appellant Reply at 21 (citing 5 U.S.C. § 555(e)).
Section 555(e) of the APA states that “[p]rompt notice
shall be given of the denial in whole or in part of a
written application, petition, or other request of an
interested person made in connection with any agency
proceeding.” 5 U.S.C. § 555(e). KNRC’s analogy falls
short because the right to a response under § 555(e)
merely facilitates judicial review when a plaintiff
otherwise has Article III standing. See High Country
Citizens All. v. Clarke, 454 F.3d 1177, 1192 (10th Cir.
2006). Section 555(e) does not independently entitle a
plaintiff to relief in the absence of prejudice suffered
or damage incurred.” Id.
Contrary to KNRC’s contention, the D.C. Circuit’s
decision in Natural Resources Defense Council, Inc. v.
Securities & Exchange Commission, 606 F.2d 1031
(D.C. Cir. 1979), did not alter that Article III standing
analysis. There, petitioners had standing to sue for a
4 The dissent repeats the complaint’s threadbare allegation that
“counties and property owners are less likely to undertake the
burdensome actions the [conservation plan] requires because the
Rule may not actually be in effect.” Dissent at 3. This
allegation—devoid of specifics—cannot overcome KNRC’s failure
to plead any instance where anyone expressed any doubt about
the status of the Rule outside the confines of this lawsuit, let
alone refused to participate in the conservation plan as a result
of such doubts. See COPE v. Kan. State Bd. of Educ., 821 F.3d
1215, 1221 (10th Cir. 2016).

Appendix A-17
response to their petition because the SEC’s failure to
provide “equal employment or environmental
information” impaired their ability to vote their
shares “in a financially prudent and ethically sound
manner.” Id. at 1042. Here, by contrast, KNRC fails to
allege a connection between DOI’s failure to submit
the PECE Rule to Congress and KNRC’s legally
protected interests.
Nor can KNRC’s theory be shoehorned into the
body of precedent where courts have found standing
to assert procedural rights available at common law
or created by Congress. See Spokeo, 136 S. Ct. at 1549
(collecting cases). As examples of such procedural
rights, the Court in Spokeo, Inc. v. Robins cited libel,
slander per se, and statutes requiring the public
release of information. See id. at 1549–50. These
examples are all instances where a procedural right
exists—or was created—to vindicate an individual’s
concrete interest. The CRA’s requirement that
agencies submit their rules to Congress, by contrast,
seems designed to facilitate Congress’s oversight of
the executive branch. And even if the CRA’s reporting
requirement were designed to protect third parties
with an interest in agency rules, KNRC would still
need to allege an otherwise cognizable concrete injury.
See Strubel v. Comenity Bank, 842 F.3d 181, 190 (2d
Cir. 2016) (explaining that “even where Congress has
accorded procedural rights to protect a concrete
interest, a plaintiff may fail to demonstrate concrete
injury where violation of the procedure at issue
presents no material risk of harm to that underlying
interest”).5
5 The dissent cites a number of cases finding concrete injuries
based on procedural errors, but none is analogous to the situation

Appendix A-18
2. KNRC’s Second Theory: The Pall of a Joint
Resolution of Disapproval.
KNRC’s second theory is that it cannot rely on the
PECE Rule until the time for a joint resolution of
disapproval expires. This theory fails because
Congress can overturn the PECE Rule at any time,
regardless of the CRA.6 And it makes no difference to
our analysis that Congress has provided for
streamlined consideration of a joint resolution
here. One involved a financial interest in nuclear waste storage.
See Skull Valley Band of Goshute Indians v. Nielson, 376 F.3d
1223, 1234 (10th Cir. 2004). Another involved “the process under
which a state and a tribe negotiate a [gaming] compact.” New
Mexico v. Dep’t of Interior, 854 F.3d 1207, 1217 (10th Cir. 2017).
And the remainder involved environmental harms. See
WildEarth Guardians v. U.S. E.P.A., 759 F.3d 1196, 1205 (10th
Cir. 2014); S. Utah Wilderness All. v. Office of Surface Mining
Reclamation & Enf’t, 620 F.3d 1227, 1234 (10th Cir. 2010); Sierra
Club v. U.S. Dep’t of Energy, 287 F.3d 1256, 1265 (10th Cir.
2002). The common theme in these cases is that, in each, the
alleged procedural error plausibly threatened an injury far more
concrete than some legal uncertainty that might impact a future
rulemaking.
The dissent separately argues that KNRC needs “an
opportunity to sway administrative decisionmakers to rule” in its
favor by not listing the lesser prairie-chicken. Dissent at 5. But
the dissent’s only reason that KNRC’s potential, future
presentation to DOI is currently under threat is uncertainty,
which we have already rejected as inadequately pleaded.
Moreover, the dissent’s support for its “sway” theory is Carey v.
Piphus, 435 U.S. 247 (1978), a case about school disciplinary
hearings, not the APA. See also Rector v. City & Cty. of Denver,
348 F.3d 935, 944 (10th Cir. 2003) (discussing Carey).
6 Contrary to the dissent’s assertion, we do not hold that KNRC
may not rely on the Rule because Congress might overturn it.
Rather, KNRC has no legally protected interest in Congress’s use
of a joint resolution of disapproval versus some other legislative
procedure.

Appendix A-19
through the CRA. KNRC has no legally protected
interest in Congress’s internal lawmaking procedures,
so long as Congress complies with the requirements of
bicameralism and presentment. See Ctr. for Biological
Diversity v. Bernhardt, 946 F.3d 553, 562 (9th Cir.
2019) (rejecting a constitutional challenge to a joint
resolution of disapproval because Congress passed
and the President signed the resolution); 5 U.S.C.
§ 802(g)(1) (explaining that joint resolutions of
disapproval are “an exercise of the rulemaking power
of the Senate and House of Representatives”).
3. KNRC’s Third Theory: The Influence of the
PECE Rule on DOI’s Ongoing Listing
Analysis.
KNRC’s third theory is that DOI will soon
consider whether and how to apply the PECE Rule to
its new listing decision, as contemplated by the
stipulated settlement agreement in Defenders of
Wildlife, No. 1:19-cv-01709-RC (D.D.C. Sept. 16,
2019), ECF No. 7. KNRC suggests there is a risk DOI’s
analysis “will give short shrift” to KNRC’s
conservation plan. Appellant Reply at 25.
KNRC’s asserted injury is too speculative to
satisfy standing. As DOI again considers whether to
list the lesser prairie-chicken, it is required by the
Endangered Species Act to consider “those efforts, if
any, being made by any State or foreign nation, or any
political subdivision of a State or foreign nation, to
protect such species, whether by predator control,
protection of habitat and food supply, or other
conservation practices.” 16 U.S.C. § 1533(b)(1)(A). The
PECE Rule explains how DOI plans to meet that
statutory requirement but does not foreordain any
particular outcome. Nor would the absence of the

Appendix A-20
PECE Rule alleviate DOI’s statutory obligation to
consider KNRC’s efforts.
KNRC is not injured by an analysis that has yet
to take place. Likewise, it cannot show a certainly
impending injury when the outcome of that analysis
is unknown. See Ctr. for Biological Diversity, 946 F.3d
at 560 (holding that a plaintiff lacked standing to
challenge a hypothetical future rulemaking for failure
to comply with the CRA).
4. KNRC’s Fourth Theory: The Potential for an
Unlawful Listing Decision.
KNRC’s fourth theory is that it will “suffer
additional injury if the lesser prairie-chicken is listed
without proper consideration of KNRC’s conservation
plan or a decision not to list the species is struck down
for considering plans like KNRC’s.” Appellant Reply
at 25. This asserted injury is speculative because it
depends on the outcome of a future rulemaking (and
subsequent litigation). KNRC may never suffer the
asserted injury, so the question is not just when it may
sue, but if it will ever be a proper plaintiff to bring this
claim. Cf. S. Utah Wilderness All. v. Palma, 707 F.3d
1143, 1157 (10th Cir. 2013) (“The question here is not
whether [the plaintiff] is a proper party to challenge
[the agency’s] decision, but when it can do so.”).7
KNRC asserts that the shortcomings with respect
to standing identified in the complaint are “curable,”

7 The dissent draws a distinction between DOI failing to consider
KNRC’s plan “at all,” versus failing to give the plan “proper
consideration.” Dissent at 11–12. The import of this distinction
eludes us; it only highlights the speculative nature of KNRC’s
alleged injury, because DOI might ultimately consider KNRC’s
plan in precisely the fashion KNRC desires.

Appendix A-21
and asks that, rather than remand “with leave to
amend,” we reach the issue of subject matter
jurisdiction “to avoid the needless waste of party and
judicial resources.” Appellant Reply at 19. We agree
this is the proper course. See Ohlander v. Larson, 114
F.3d 1531, 1538 (10th Cir. 1997) (declining to remand
a case in the interest of efficiency and judicial
economy, and in the interest of providing immediate
guidance”). Accordingly, we now consider whether the
CRA strips the federal courts of jurisdiction over this
matter.
B. Subject Matter Jurisdiction
We review de novo whether subject-matter
jurisdiction is proper.” Navajo Nation v. Dalley, 896
F.3d 1196, 1203 (10th Cir. 2018). There is no dispute
that the APA confers subject matter jurisdiction over
KNRC’s claim if 5 U.S.C. § 805 does not preclude it.
So, our task is to interpret § 805.
The goal of statutory interpretation is to
ascertain the congressional intent and give
effect to the legislative will. In conducting this
analysis, we first turn to the statute’s plain
language. We give undefined terms their
ordinary meanings, considering both the
specific context in which the word is used and
the broader context of the statute as a whole.
In re Taylor, 899 F.3d 1126, 1129 (10th Cir. 2018)
(internal quotation marks omitted).
1. Plain Language
The CRA provides that “[n]o determination,
finding, action, or omission under this chapter shall
be subject to judicial review.” 5 U.S.C. § 805. For our
purposes, the two key phrases in § 805 are “omission”

Appendix A-22
and “under this chapter.” Id. The statute does not
define either phrase, so we rely on ordinary meaning.
In re Taylor, 899 F.3d at 1129.
An “omission” is a “failure to do something; esp., a
neglect of duty.” Omission, Black’s Law Dictionary
(11th ed. 2019). “Under,” when used as a preposition,
sometimes means “subject to the authority,
control, guidance, or instruction of,” as in “under
the terms of the contract.” Under, Merriam-Webster,
http://www.merriam-webster.com/dictionary/under
(last visited Mar. 25, 2020). So, an “omission under
this chapter” refers to the failure to do something that
the CRA requires.
DOI’s duty to submit the PECE Rule to Congress
arises under § 801(a)(1)(A). KNRC alleges that DOI
has failed to do something the CRA requires it to do
by not submitting the PECE Rule to Congress.
Consequently, KNRC’s claim is covered by the plain
language of § 805, and we lack subject matter
jurisdiction to review DOI’s omission.
KNRC resists this conclusion by citing Kucana v.
Holder, 558 U.S. 233 (2010). In that case, the Supreme
Court described the word “under” as “chameleon”
because “it ‘has many dictionary definitions and must
draw its meaning from its context.’” Id. at 245 (quoting
Ardestani v. I.N.S., 502 U.S. 129, 135 (1991)). There,
the Court was interpreting 8 U.S.C. § 1252, which
prohibits courts from reviewing any “decision or
action of the Attorney General or the Secretary of
Homeland Security the authority for which is
specified under this subchapter to be in the discretion
of the Attorney General or the Secretary of Homeland
Security. . . .” 8 U.S.C. § 1252(a)(2)(B)(ii) (emphasis
added).

Appendix A-23
KNRC argues there is no difference between the
phrase “under this chapter” in the CRA and the
phrase “under this subchapter” as interpreted in
Kucana. But the context in which the two phrases
appear is very different. In 8 U.S.C. § 1252, “under
this subchapter” identifies the location of the specified
authority. And that authority, the Supreme Court
explained in Kucana, might be specified in statutes or
regulations. See 558 U.S. at 244. In the CRA, by
contrast,
“under
this
chapter”
modifies
“determination, finding, action, or omission.” 5 U.S.C.
§ 805. And other parts of the CRA expressly
contemplate various determinations, findings,
actions, or omissions. See, e.g., id. § 801(a)(1)(A). So,
in this context, the referent of the term “ under” is
clear. “Under this chapter” refers to duties the CRA
imposes on various actors, whether those duties take
the form of determinations, findings, actions, or
omissions.
KNRC also argues it is ambiguous whether § 805
refers to omissions by Congress or omissions by
agencies. We disagree. The CRA contemplates
determinations, findings, actions, and omissions by
agencies, the Comptroller General, the President, and
Congress. See, e.g., id. § 801(a)(1)(A) (agencies “shall
submit” a report); id. § 801(a)(1)(C) (the House and
Senate “shall provide” copies of the report to
committees); id. § 801(a)(2)(A) (the Comptroller
General “shall provide” a report on each major rule);
id. § 801(a)(2)(B) (agencies “shall cooperate” with the
Comptroller General); id. § 801(c)(1) (a rule that
would otherwise not take effect may take effect if the
President makes a determination”); id. § 808 (if an
agency “finds” for good cause that notice and public
procedure “are impracticable, unnecessary, or

Appendix A-24
contrary to the public interest,” the agency then
“determines” when the rule “shall take effect”). There
is nothing in the text of the CRA to suggest that § 805
applies only to a subset of these determinations,
findings, actions, and omissions, depending on the
actor who performs them. Instead, the CRA
unambiguously prohibits judicial review of any
omission by any of the specified actors.8
The dissent embraces a different reading. In the
dissent’s view, § 805 “strips review of compliance with
the CRA’s review procedures, which do not arise until
after an agency has submitted a proposed rule for
review.” Dissent at 23. This reading— which excludes
agencies’ reporting obligations to Congress and to the
Comptroller General—has no basis in the text of
§ 805. The dissent asserts that the CRA requires only
determinations and findings after submission of a
rule, but it offers no interpretation of the terms
“action” or “omission.” So, the dissent would have us
read § 805 to preclude judicial review of all omissions
except those arising under § 801(a)(1)(A). We decline
to “add to, remodel, update, or detract from” the CRA’s
plain language in such a manner. Bostock v. Clayton
Cty., 140 S. Ct. 1731, 1738 (2020).

8 Relying on the canon noscitur a sociis, the dissent reasons that
§ 805 cannot apply to DOI’s omissions because the CRA does not
also task DOI with making determinations or findings. Yet the
CRA does contemplate agencies making determinations.
Specifically, § 808 states that, “[n]otwithstanding section 801,”
an agency may “determine[]” when a rule takes effect under
certain circumstances. In addition, the CRA does not charge any
one actor with determinations, findings, actions, and omissions.
The dissent’s concern that different terms in § 805 might apply
to different actors is therefore inevitable under any reading.

Appendix A-25
2. Canons of Statutory Interpretation
Because we hold the plain language of § 805 is
clear, we need not rely on the various canons of
statutory interpretation. See Levorsen v. Octapharma
Plasma, Inc., 828 F.3d 1227, 1232 (10th Cir. 2016). We
nevertheless address KNRC’s invocation of several
canons, to ensure that our interpretation of § 805 is
sound.
First, we consider the canon relating to
surplusage. KNRC argues our interpretation of § 805
renders meaningless the CRA’s prohibition on
agencies reissuing a disapproved-of rule “in
substantially the same form.” 5 U.S.C. § 801(b)(2). In
so arguing, KNRC assumes an agency’s decision to
reissue a disapproved-of rule would constitute a
“determination, finding, action, or omission under this
chapter.” 5 U.S.C. § 805. That assumption is tenuous.
As we have already explained, “under this chapter”
specifies those determinations, findings, actions, or
omissions that are covered by § 805. If an agency were
to promulgate a disapproved-of rule, it would
presumably do so in reliance on its rulemaking
authority. Those rulemaking authorities are not part
of the CRA, i.e., “this chapter.” It is therefore not
obvious that an agency’s decision to reissue a
disapproved-of rule—pursuant to authority conferred
by statutes other than the CRA—would fall within
§ 805’s limited scope.9

9 We do not decide whether a court would have subject matter
jurisdiction to review such a hypothetical rule because that
question is not before us in this appeal. So, contrary to the
dissent’s accusation, our opinion today does not render the CRA
ineffectual.” Dissent at 23.

Appendix A-26
KNRC also argues our interpretation renders the
CRA’s severability clause superfluous. To the
contrary, the severability clause would apply if a
plaintiff with standing claimed that a portion of the
CRA violated the separation of powers doctrine, for
example, because such a claim would not be covered
by § 805. See Ctr. for Biological Diversity, 946 F.3d at
560–62 (considering and rejecting such a claim).
Next, KNRC invokes the CRA’s purpose, which is
purportedly to “restrain[] agency overreach.”
Appellant Br. at 36. But that broad statement of
purpose tells us nothing about whether Congress
intended district courts to review agency compliance
with the CRA’s reporting requirements. See Park ’N
Fly, Inc. v. Dollar Park & Fly, Inc., 469 U.S. 189, 194
(1985) (instructing courts to assume “the ordinary
meaning . . . accurately expresses the legislative
purpose”).
The dissent analogizes Congress’s enactment of
§ 805 to its contemporaneous repeal of a jurisdictionstripping provision in the Regulatory Flexibility Act
(“RFA”). But, as the dissent acknowledges, the two
statutes used very different language. It is undeniable
that § 805 constrains judicial review to some extent.
Our interpretation of the CRA is therefore just as
“harmonious with the RFA” as the dissent’s
interpretation. Dissent at 25.
3. Legislative History
Once we exhaust the traditional tools of statutory
interpretation, we may cautiously) turn to the
legislative history. See Ausmus v. Perdue, 908 F.3d
1248, 1254 10th Cir. 2018). The only piece of evidence
that speaks directly to § 805 is the Senators’ joint

Appendix A-27
statement. See 142 Cong. Rec. S3686 (interpreting the
CRA to permit judicial review of whether a rule has
taken effect). That statement—entered into the
Congressional Record after the CRA passed—is “an
extremely hazardous basis for inferring the meaning
of a congressional enactment.” Consumer Prod. Safety
Comm’n v. GTE Sylvania, Inc., 447 U.S. 102, 118 n.13
(1980). The legislators who voted for or against the
CRA did not have that statement before them when
they considered the bill. All they had was
Congressman McIntosh’s promise to insert a
statement into the record “at a later time.” 142 Cong.
Rec. at H3005.10
KNRC points to the Supreme Court’s observation
in United States v. Woods, 571 U.S. 31, 48 (2013), that
a commentary on a recently passed law, “like a law
review article, may be relevant to the extent it is
persuasive.” Because the Senators’ floor statement
contradicts the plain language of § 805, however, it is
not persuasive.
4. Presumption of Judicial Review
Throughout its brief, KNRC invokes the
presumption in favor of judicial review of
administrative agency action. “The presumption can
only be overcome by ‘clear and convincing evidence’ of
congressional intent to preclude judicial review.”
Guerrero-Lasprilla v. Barr, 140 S. Ct. 1062, 1069
(2020) (quoting Reno v. Catholic Social Services, Inc.,
10 The fact that the promised statement was entered into the
Congressional Record soon after the CRA’s passage does not
mitigate our concerns. “Post-enactment legislative history (a
contradiction in terms) is not a legitimate tool of statutory
interpretation.” Bruesewitz v. Wyeth LLC, 562 U.S. 223, 242
(2011).

Appendix A-28
509 U.S. 43, 64 (1993)); see also Block v. Cmty.
Nutrition Inst., 467 U.S. 340, 349 (1984) (explaining
that the presumption may be rebutted by “specific
language”).
KNRC’s reliance on the presumption is therefore
precluded: Because § 805 unambiguously applies to
KNRC’s claim, the presumption is rebutted. But even
if § 805 did not apply, the presumption would add
little to our analysis because the parties agree judicial
review is otherwise available under the APA. Kucana
is instructive on this point. There, the Court applied
the presumption in favor of judicial review only to
resolve any “lingering doubt” after determining that
the statute in question was susceptible to divergent
interpretations. 558 U.S. at 251.11
5. Other Relevant Precedents
Our interpretation is consistent with a footnote in
our decision in Via Christi, as well as decisions issued
by the Ninth and D.C. Circuits. See Via Christi, 509
F.3d at 1271 n.11; Ctr. for Biological Diversity, 946
F.3d at 563; Montanans For Multiple Use v.
Barbouletos, 568 F.3d 225, 229 (D.C. Cir. 2009). And,
contrary to KNRC’s suggestion, the decisions of other
circuits are not to the contrary. In Liesegang v.
Secretary of Veterans Affairs, 312 F.3d 1368, 1374
(Fed. Cir. 2002), the Federal Circuit interpreted the
CRA to determine when a regulation had taken effect
without mentioning § 805. See also Nat. Res. Def.
Council v. Abraham, 355 F.3d 179, 202 (2d Cir. 2004)
11 The dissent criticizes us for not applying the presumption of
judicial review at the beginning of our analysis. No matter;
regardless of our paragraph sequence, the ultimate question is
whether there is clear and convincing evidence of congressional
intent to preclude review.

Appendix A-29
(citing Liesegang but also not mentioning § 805).
Because neither party in Liesegang invoked 805, the
Federal Circuit’s opinion does not inform our
interpretation of that provision. See Ctr. for Biological
Diversity, 946 F.3d at 563 n.7 (distinguishing
Liesegang for that reason).
III. CONCLUSION
For the forgoing reasons, KNRC’s complaint failed
to plausibly allege Article III standing. In the interest
of judicial economy, we also interpret 5 U.S.C. § 805
and hold that the district court lacked subject matter
jurisdiction over KNRC’s claim. The district court’s
judgment is AFFIRMED.

Appendix A-30
LUCERO, J., dissenting:
This much is undisputed: the Department of the
Interior (“DOI”) has violated the Congressional
Review Act (“CRA”), 5 U.S.C. § 801 et seq., and has
indicated no intent to remedy its violation. The
Kansas Natural Resource Coalition (“KNRC”), a
conservation group, has been harmed by DOI’s refusal
to comply with the law. Yet the majority’s holding
closes the courthouse doors to KNRC and any private
party seeking judicial relief from an agency’s violation
of the statute—all under the auspices of enforcing the
will of Congress. But Congress enacted the CRA to
restore democratic accountability to agency
rulemaking. The majority’s holding does not give
effect to Congress’ intent; it undermines it.
With respect to its conclusion that KNRC lacks
standing to bring this suit, the majority principally
errs by failing to recognize that the harm KNRC
alleges is procedural. And with respect to its
conclusion that the CRA strips us of jurisdiction to
review KNRC’s claim, the majority principally errs by
failing to properly apply the strong presumption of
judicial review of agency action, which places a heavy
burden on DOI to show that our review is precluded.
For the reasons that follow, I would conclude that
KNRC has adequately alleged standing at this early
stage of litigation and that DOI has failed to show the
CRA clearly and convincingly precludes judicial
review of KNRC’s claim. I would also conclude that
this lawsuit was timely. Accordingly, I would reverse
the decision of the district court.

Appendix A-31
I
As the majority recognizes, a plaintiff does not
have constitutional standing to sue unless it can
establish it has “(1) suffered an injury in fact, (2) that
is fairly traceable to the challenged conduct of the
defendant, and (3) that is likely to be redressed by a
favorable judicial decision.” Spokeo, Inc. v. Robins,
136 S. Ct. 1540, 1547 (2016). I would conclude that
KNRC has satisfied all three requirements.
A
To establish injury in fact, a plaintiff must show
that he or she suffered ‘an invasion of a legally
protected interest’ that is ‘concrete and particularized’
and ‘actual or imminent, not conjectural or
hypothetical.’” Id. at 1548 (quoting Lujan v. Defs. of
Wildlife, 504 U.S. 555, 560 (1992)). The majority
considers only whether KNRC’s alleged injury is
concrete.
In its complaint, KNRC alleges it has developed a
conservation plan (the “Plan”) for the lesser prairie
chicken in Kansas, where the majority of the species’
population is located. It further alleges that listing a
species as threatened or endangered under the
Endangered Species Act (“ESA”) “entail[s] severe
regulatory restrictions disruptive to . . . affected
states’ economies.” Thus, listing the prairie chicken
would have a substantial impact “on the ability of
Kansas and its counties to effectively manage natural
resources.” Accordingly, KNRC developed the Plan in
order to obviate the need for the species to be listed.
This is precisely the sort of action envisioned and
encouraged by the rule at issue in this case—the
Policy for Evaluation of Conservation Efforts When

Appendix A-32
Making Listing Decisions, 68 Fed. Reg. 15,100
(Mar. 28, 2003) (the “PECE Rule” or the “Rule”). Id. at
15,101-04.
The Plan “calls for counties to develop and
implement policies” beneficial to the conservation of
the lesser prairie chicken. KNRC alleges that to be
effective, the Plan requires “positive engagement” on
the part of local governments and private landowners.
Such engagement includes taking action to “control
invasive species,” “promote sustainable grazing,”
“better mark fences to prevent entanglement or
injury,” and “encourage habitat restoration.” KNRC
alleges that these actions involve the commitment of
“substantial resources.”
Two criteria are set forth in the PECE Rule for
determining whether a plan like KNRC’s—a
formalized conservation effort yet to be implemented
or to show its effectiveness—obviates the need for a
species to be listed. Id. at 15,100. DOI considers
“(1) [t]he certainty that the conservation efforts will
be implemented and (2) the certainty that the efforts
will be effective.” Id. at 15,101. “Certainty” is key.
KNRC alleges that DOI’s failure to submit the PECE
Rule to Congress has harmed its ability to
demonstrate the “certainty” called for in the Rule.
Specifically, it alleges that DOI’s failure to submit the
PECE Rule to Congress, as required by the CRA,
places it in a “catch-22.” On the one hand, it must meet
the Rule’s requirements to protect its interest in
avoiding the listing of the prairie chicken. On the
other, counties and property owners are less likely to
undertake the burdensome actions the Plan requires
because the Rule may not actually be in effect, making
it more difficult for KNRC to show with “certainty”

Appendix A-33
that the Plan will be implemented and effective.
Accordingly, DOI’s failure to submit the PECE Rule to
Congress has undermined KNRC’s ability to protect
its interest.
1
This asserted injury is concrete. It “is one of
process, not result.” WildEarth Guardians v. U.S.
E.P.A., 759 F.3d 1196, 1205 (10th Cir. 2014). We have
recognized that “[f]or a procedural injury, the
requirements for Article III standing are somewhat
relaxed, or at least conceptually expanded.” Id. (citing
Lujan, 504 U.S. at 572 n.7). A plaintiff alleging a
procedural injury “need not establish with certainty
that adherence to the procedures would necessarily
change the agency’s ultimate decision.” Id. (quoting
Utah v. Babbitt, 137 F.3d 1193, 1216 n.37 (10th Cir.
1998)). Rather, the plaintiff need only show “that
compliance with the procedural requirements could
have better protected its concrete interests.” Id.
In similar contexts, we have held that procedural
injuries comparable to the one alleged by KNRC are
concrete for purposes of Article III standing. “We have
frequently found standing based on a procedural
injury in cases in which environmental groups have
alleged that an agency failed to follow the required
procedures in taking an action that negatively
impacted members’ concrete interest in protecting and
enjoying the affected land.” New Mexico v. Dep’t of
Interior, 854 F.3d 1207, 1215-16 (10th Cir. 2017)
collecting cases). Specifically, we have recognized that
the creation of an increased risk of environmental
harm flowing from an agency’s failure to follow
statutory procedures is a concrete injury. See id. at
1215; Sierra Club v. U.S. Dep’t of Energy, 287 F.3d

Appendix A-34
1256, 1265 (10th Cir. 2002) (“To establish an injuryin-fact from failure to perform a [National
Environmental Policy Act (“NEPA”)] analysis, a
litigant must show: 1) that in making its decision
without following the NEPA’s procedures, the agency
created an increased risk of actual, threatened or
imminent environmental harm; and 2) that this
increased risk of environmental harm injures its
concrete interest.” (citing Comm. to Save Rio Hondo v.
Lucero, 102 F.3d 445, 449 (10th Cir. 1996))).
We
have
also
recognized
outside
the
environmental-law context that procedural injuries
often arise when agencies violate “statutorily
mandated procedures . . . designed to protect
plaintiffs’ interests.” New Mexico, 854 F.3d at 1216. In
particular, we have held that the loss of an
opportunity to sway administrative decisionmakers to
rule in favor of plaintiffs is a concrete injury in fact.
See Rector v. City & Cnty. of Denver, 348 F.3d 935, 944
(10th Cir. 2003) (“[T]he denial of the opportunity to
sway school officials towards [plaintiffs’] cause
constituted an injury in fact.” (citing Carey v. Piphus,
435 U.S. 247, 261 n.16 (1978))).1
KNRC’s alleged injury fits comfortably in either
characterization of procedural injury. As explained
above, KNRC’s legally protected interest is its interest
in avoiding the listing of the lesser prairie chicken.
DOI’s refusal to submit the PECE Rule to Congress,
in violation of the CRA, has created uncertainty about
1 The majority attempts to distinguish Carey because it is not
about the Administrative Procedure Act. (Maj. Op. 16 n.5.) But
the majority fails to explain why this distinction makes a
difference. It does not: the basis of comparison is the procedural
character of the harm alleged in Carey and in this case.

Appendix A-35
the validity of the criteria DOI will use in determining
whether KNRC’s conservation plan obviates the need
for the species to be listed. This uncertainty, which
impedes KNRC’s protection of its interest, is a
concrete injury for standing purposes. See Skull
Valley Band of Goshute Indians v. Nielson, 376 F.3d
1223, 1235 (10th Cir. 2004). DOI’s failure to comply
with the CRA has increased the risk that KNRC will
not succeed in protecting its interest, see New Mexico,
854 F.3d at 1215-16; Sierra Club, 287 F.3d at 1265,2
and has undermined KNRC’s opportunity to “sway”
the agency to rule in its favor, Rector, 348 F.3d at 944.3
Accordingly, I would conclude that KNRC has
alleged a concrete injury in this case. The majority
disagrees. Much of its error springs from the same
root: the majority never identifies KNRC’s legally
protected interest. As such, its analysis of the

2 In conclusory fashion, the majority asserts that “[t]he common
theme in these cases is that, in each, the alleged procedural error
plausibly threatened an injury far more concrete than some legal
uncertainty that might impact a future rulemaking.” (Maj. Op.
16 n.5.) It fails to explain this ipse dixit.

The majority asserts that KNRC cannot rely on the PECE Rule
“because Congress can overturn [it] at any time, regardless of the
CRA.” (Maj. Op. 16.) This reasoning is dubious. Under the
majority’s logic, no litigant could ever rely on a regulation or
statute—or even the Constitution—because a law can be
repealed at any time and the Constitution is subject to
amendment. In any event, KNRC alleges that it is forced to rely
on the PECE Rule because DOI treats it as lawfully in effect. We
must credit this allegation at this stage of the proceedings. See
COPE v. Kan. State Bd. of Educ., 821 F.3d 1215, 1220 (10th Cir.
2016).
3

Appendix A-36
concreteness of KNRC’s alleged injury is unmoored
from the interest allegedly harmed.4

The majority suggests KNRC’s alleged injury, whatever it is, is
not cognizable because “[t]he CRA’s requirement that agencies
submit their rules to Congress . . . seems designed to facilitate
Congress’s oversight of the executive branch.” (Maj. Op. 15.)
Though the majority cites no authority in support of this
assertion, it appears to suppose that KNRC’s claim falls outside
the “zone of interest” of the CRA’s reporting requirement. See
Hernandez-Avalos v. I.N.S., 50 F.3d 842, 847 (10th Cir. 1995).
4

There are several problems with this reasoning. First, the
zone-of-interest test is applicable in cases involving third-party
standing, which is not asserted in this appeal. See id. at 846.
Second, the zone-of-interest test “operates as a fairly weak
prudential restraint”—it is not a requirement of constitutional
standing under Article III. Id.; see also Bennett v. Spear, 520 U.S.
154, 162 (1997). Third, DOI has not argued below or on appeal
that KNRC lacks prudential standing in this case. Any such
argument is therefore waived. See Wilderness Soc’y v. Kane
Cnty., 632 F.3d 1162, 1168 n.1 (10th Cir. 2011) (en banc)
(“[P]rudential standing is not a jurisdictional limitation and may
be waived.”); Cavic v. Pioneer Astro Indus., Inc., 825 F.2d 1421,
1425 (10th Cir. 1987) (argument not properly raised below and
not advanced on appeal is waived).
Finally, even if the zone-of-interest test applied, all it
requires is “some non-trivial relation between the interests
protected by the statute and the interest the plaintiff seeks to
vindicate.” Hernandez-Avalos, 50 F.3d at 846. In this case, KNRC
alleges that the CRA was passed in part to “give[] the public the
opportunity to call the attention of politically accountable,
elected officials to concerns about new agency rules.” See 142
Cong. Rec. S3684 (daily ed. Apr. 18, 1996) (statement of Sens.
Nickles, Reid, and Stevens). This allegation satisfies the “weak”
zone-of-interest constraint. That the CRA also “seems designed
to facilitate Congress’s oversight of the executive branch,” (Maj.
Op. 15), does not displace an additional intent to “give[] the
public” a means of raising concerns about agency rules. Id. A
statute may serve more than one purpose.

Appendix A-37
2
In the majority’s view, KNRC has not alleged a
current, tangible harm because it has not specifically
alleged that counties or property owners have refused
to participate in KNRC’s conservation plan; rather,
KNRC alleges that its 32 member counties have
“adopted” the Plan. (See Maj. Op. 13.) But the majority
appears to confuse the adoption of KNRC’s Plan with
its implementation. The PECE Rule concerns
“formalized conservation efforts that have yet to be
implemented or to show effectiveness.” 68 Fed. Reg. at
15,100 (emphasis added). (See Maj. Op. 6.) The mere
fact that KNRC’s member counties have adopted the
Plan is no guarantee that the Plan is certain to be
implemented or effective—the two criteria for
evaluating whether the Plan obviates the need for a
federal listing. See id. at 15,101. KNRC specifically
alleges (1) the Plan calls on participating counties and
property
owners
to
take
resource-intensive
conservation actions; (2) these entities rely on the
PECE Rule to take the actions called for in the Plan;
and (3) DOI’s failure to submit the PECE Rule to
Congress creates uncertainty about the validity of the
Rule, thereby undermining the incentives for taking
these burdensome actions. These allegations suffice to
plead a tangible injury. The mere fact that KNRC’s
member counties have “adopted” the Plan does not
render KNRC’s alleged injury intangible.
The majority also faults KNRC for “fail[ing] to
allege that a county or property owner has . . .
expressed concerns over the Rule’s validity” or raised
“doubts about participating in KNRC’s conservation
plan.” (Maj. Op. 13-14.) But such specific allegations
are unnecessary for standing purposes at this stage of

Appendix A-38
litigation. “In essence[,] the question of standing is
whether the litigant is entitled to have the court
decide the merits of the dispute or of particular
issues.” United States v. Colo. Sup. Ct., 87 F.3d 1161,
1164 (10th Cir. 1996) (quotation omitted). In
procedural-injury challenges to agency action, the
plaintiff needs to allege only that the agency’s
“compliance with . . . procedural requirements could
have better protected its concrete interests.” New
Mexico, 854 F.3d at 1215 (quotation omitted). Further,
“‘[g]eneral factual allegations of injury resulting from
the defendant’s conduct may suffice’ to support the
claim.” COPE, 821 F.3d at 1220-21 (quoting Lujan,
504 U.S. at 561). When “reviewing questions of
standing under a motion to dismiss,” we must
“presume[] general allegations embrace those specific
facts necessary to support the claim.” Comm. to Save
the Rio Hondo, 102 F.3d at 449. Thus, the plaintiff’s
burden to establish standing at the pleading stage is
“lightened considerably.” Petrella v. Brownback, 697
F.3d 1285, 1292 (10th Cir. 2012).
In other procedural injury cases, we have not
required the level of specificity required by the
majority. In Southern Utah Wilderness Alliance v.
Office of Surface Mining Reclamation & Enforcement,
620 F.3d 1227 (10th Cir. 2010), we concluded that the
plaintiff organization had alleged a concrete injury
where the complaint stated its members used land for
various purposes and claimed that proposed mining
operations would impair many of these uses. Id. at
1234. We did not require the plaintiff to allege specific
“doubts” raised by individual members about their
continued ability to use the land, see id., and no such
specific allegations appeared in the complaint, see
Corrected
Second
Amended
Complaint
for

Appendix A-39
Declaratory & Injunctive Relief, S. Utah Wilderness
All. v. Off. of Surface Mining Reclamation & Enf’t, (D.
Utah Nov. 14, 2008) (No. 2:07CV678 DAK). The
absence of such specific allegations does not render an
asserted injury insufficiently concrete at the pleading
stage.
Similarly, in City of Albuquerque v. United States
Department of Interior, 379 F.3d 901 (10th Cir. 2004),
we addressed an allegation in the City’s complaint
“that by locating its offices outside the central
business area, Interior was weakening the City of
Albuquerque and discouraging development and
redevelopment of the central business area.” Id. at 912
(quotation and alteration omitted). From this
allegation, we drew the natural inference . . . that
available property exists within the City of
Albuquerque’s central business area,” such that the
defendant’s action could injure the City. Id. at 913. We
did not require the City to specify how it was
weakened or how the defendant’s action discouraged
development and redevelopment. Instead, “[b]ecause
the case [wa]s before us with only a complaint,” we
concluded that “we must presume that the allegations
in the complaint are correct and the City will be able
to prove specific facts to support the claim.” Id.
Our inquiry in this case is the same. We need not
assess at the pleading stage whether KNRC has
proven that implementation of the Plan has been
hindered by doubts about the validity of the PECE
Rule. Instead, we need only satisfy ourselves that
KNRC will be able to prove relevant facts if this case
proceeds, keeping in mind that KNRC’s burden at this
stage is “lightened considerably.” Petrella, 697 F.3d at
1292. The specific facts sought by the majority are

Appendix A-40
required to establish standing at the summary
judgment stage but not at the pleading stage. See
Comm. to Save the Rio Hondo, 102 F.3d at 450.
3
Apart from its concern about the detail of KNRC’s
allegations, the majority concludes that the harms
KNRC alleges are speculative. (See Maj. Op. 13, 1718.) The majority characterizes KNRC’s injury as
contingent on the outcome of future events and
asserts, without citation, that “KNRC is not injured
by an analysis that has yet to take place.” (Id. at 17.)
But as I have explained, KNRC’s injury “is one of
process, not result.” WildEarth Guardians, 759 F.3d
at 1205.5 The increased risk that KNRC will be unable
to obviate the need for listing the lesser prairie
chicken and the diminishment of its opportunity to do
In its reply brief, KNRC discusses provisions in the
Administrative Procedure Act requiring agencies to timely act on
public petitions to issue new rules. See 5 U.S.C. § 555(b), (e). It
does so to illustrate that procedural harms may exist even
though it is uncertain whether the agency will ultimately rule in
favor of a petitioner on the merits. Citing High Country Citizens
Alliance v. Clarke, 454 F.3d 1177 (10th Cir. 2006), the majority
concludes that KNRC’s “analogy falls short because the right to
a response under § 555(e) merely facilitates judicial review when
a plaintiff otherwise has Article III standing.” (Maj. Op. 14.) It
misses the point. KNRC does not claim it is “independently
entitle[d] . . . to relief” under § 555(e) “in the absence of prejudice
suffered or damage incurred.” (Id. (quotation omitted).) Rather,
it merely draws the analogy to § 555 to show that the uncertainty
of an agency’s ultimate determination on the merits of plaintiff’s
claim does not dispositively mean an asserted procedural injury
is speculative. As detailed above, that proposition is wellsupported by our precedent. See WildEarth Guardians, 759 F.3d
at 1205; New Mexico, 854 F.3d at 1215-16; Rector, 348 F.3d at
944; see also Lujan, 504 U.S. at 572 n.7.
5

Appendix A-41
so exist independently of whether DOI ultimately
decides to list the lesser prairie chicken.6 That DOI’s
analysis has yet to take place, and that DOI may
ultimately decide not to list the prairie chicken, does
not mean KNRC has suffered no harm.
Additionally, the majority rejects KNRC’s
contention that DOI may “give short shrift” to its
conservation plan, stating that the ESA, not the
PECE Rule, requires DOI to consider the Plan. (Maj.
Op. 17.) The majority misunderstands KNRC’s
argument. Nowhere does KNRC complain that DOI
will not consider the Plan at all. Rather, it argues that
it will be procedurally injured if DOI fails to accord the
Plan “proper consideration.” The majority observes
that “[t]he PECE Rule explains how DOI plans to
meet that statutory requirement but does not
foreordain any particular outcome.” (Maj. Op. 17.) Be
that as it may, the PECE Rule contains specific
criteria for evaluating whether a conservation plan
6 The majority cites Center for Biological Diversity v. Bernhardt,
946 F.3d 553 9th Cir. 2019), for the proposition that a plaintiff
does not have standing when its injury arises from an “analysis,”
and the “outcome of that analysis is unknown.” (Maj. Op. 17.) As
an initial matter, KNRC challenges agency action, and this outof-circuit case does not involve a challenge to agency action. The
discussion the majority cites addresses the plaintiff’s
nondelegation-doctrine challenge to congressional action taken
under a separate provision of the CRA not at issue in this case.
See Ctr. for Biological Diversity, 946 F.3d at 560. The plaintiff’s
claim, moreover, was “premised on the assumption” that DOI
would take a specific action upon the outcome of purely
hypothetical, subsequent litigation. See id. Such speculation is a
far cry from KNRC’s allegations, which sufficiently establish a
concrete procedural injury existing regardless of DOI’s ultimate
decision whether to list the lesser prairie chicken. Thus, Center
for Biological Diversity is not applicable to this case, and even if
it were, it would not support the majority’s assertion.

Appendix A-42
like KNRC’s obviates the need for a federal listing. See
68 Fed. Reg. at 15,101, 15,114-15. KNRC alleges it has
relied on these criteria, as it must, in developing a
conservation plan sufficient to protect its concrete
legal interests. The uncertainty about the validity of
these criteria threatens KNRC’s ability to protect its
interest regardless of the particular outcome. See New
Mexico, 854 F.3d at 1215 (in a procedural injury
challenge, plaintiff need merely allege that agency
“compliance with . . . procedural requirements could
have better protected its concrete interests.”
(quotation omitted)).
For these reasons, I would conclude that KNRC
has alleged a concrete procedural injury in this case.
B
Although the majority does not address the
remaining elements of standing, I briefly address
them here. To establish an injury in fact, KNRC’s
injury must be “particularized.” Lujan, 504 U.S. at
560. That is, KNRC must allege it has been injured “in
a personal and individual way.” Spokeo, 136 S. Ct. at
1548.
KNRC has satisfied this requirement. It alleges it
“is an organization of county governments in western
Kansas that promotes local government participation
in federal and state policy on conservation and natural
resource issues.” It alleges it developed its
conservation plan for the lesser prairie chicken hoping
to obviate the need for the species to be listed as
threatened under the ESA. And it did so because a
federal
listing
“entail[s]
severe
regulatory
restrictions” that would be “disruptive” to the
economies of its 32 member counties and would impair

Appendix A-43
the counties’ ability to “effectively manage natural
resources.” This “personal stake” in the outcome of
litigation is sufficient to show particularity. See
Gwaltney of Smithfield, Ltd. v. Chesapeake Bay
Found., Inc., 484 U.S. 49, 66 & n.5 (1987) (quoting
Baker v. Carr, 369 U.S. 186, 204 (1962)). KNRC does
not allege a “bare procedural violation,” Spokeo, 136
S. Ct. at 1550, undifferentiated from the general
public’s interest “in [the] proper application of the
Constitution and laws,” Lujan, 504 U.S. at 573, which
courts have held to be insufficiently particularized.
See also United States v. Richardson, 418 U.S. 166,
177 (1974) (undifferentiated grievance common to all
members of the public insufficient to show
particularity).
With respect to the second requirement of Article
III standing, KNRC must establish that the injury of
which it complains is “fairly traceable” to the
challenged conduct. Lujan, 504 U.S. at 560 (alteration
omitted). It easily satisfies this requirement. KNRC’s
concrete injury—the undermining of its ability to
obviate the need for listing the lesser prairie
chicken—results from uncertainty about the validity
of the PECE Rule, which itself arises from DOI’s
failure to submit the Rule to Congress for approval as
required by the CRA. DOI’s refusal to comply with the
statute has thus caused KNRC’s injury. See id.
(“[T]here must be a causal connection between the
injury and the conduct complained of.”).
Finally, the injury to KNRC wrought by DOI’s
noncompliance with the CRA is redressable by this
court. See Lujan, 540 U.S. at 561. Crucially, KNRC
need not show that DOI’s compliance with the statute
would affect its ultimate determination whether to list

Appendix A-44
the lesser prairie chicken. See id. at 572 n.7; Renal
Physicians Ass’n v. U.S. Dep’t of Health & Hum.
Servs., 489 F.3d 1267, 1278 (D.C. Cir. 2007) (with
respect to redressability, “in a procedural-injury case,
a plaintiff need not show that better procedures would
have led to a different substantive result”). Rather, it
is enough that were the court to declare the PECE
Rule invalid and direct DOI to submit it to Congress,
it would eliminate the uncertainty regarding the
validity of the Rule and trigger the statutory timeline
for the Rule’s approval. Armed with the knowledge
that the Rule is invalid, KNRC could proceed to take
necessary action to implement the Plan with
certainty. Cf. Skull Valley Band of Goshute Indians,
376 F.3d at 1234 (observing that invalidating a
challenged ordinance allowed a company to “continue
with the state agency’s permitting process, knowing
that obtaining a state agency permit will not have
been in vain” (alterations omitted)). Accordingly,
KNRC’s injury is redressable by the declaratory relief
it seeks.
In sum, I would conclude that KNRC has standing
to challenge DOI’s failure to submit the PECE Rule to
Congress in violation of the CRA.
II
Turning to subject matter jurisdiction, I would
hold that § 805 of the CRA does not strip us of judicial
power to review DOI’s noncompliance with the
statute.
A
“Congress rarely intends to prevent courts from
enforcing its directives to federal agencies.” Mach
Mining, LLC v. E.E.O.C., 575 U.S. 480, 486 (2015); see

Appendix A-45
also Bowen v. Mich. Acad. of Fam. Physicians, 476
U.S. 667, 671 (1986) (“The statutes of Congress are not
merely advisory when they relate to administrative
agencies, any more than in other cases.” (quotation
omitted)). We need not doubt an agency’s fidelity to
law to know that “legal lapses and violations occur,
and especially so when they have no consequence.”
Weyerhaeuser Co. v. U.S. Fish & Wildlife Serv., 139 S.
Ct. 361, 370 (2018) (quotation omitted). For this
reason, courts have “long applied a strong
presumption
favoring
judicial
review
of
administrative action.” Id. (quotation omitted). This
presumption applies to statutory provisions
purporting to limit or preclude our jurisdiction. See
Guerrero-Lasprilla v. Barr, 140 S. Ct. 1062, 1068
(2020); Cuozzo Speed Techs., LLC v. Lee, 136 S. Ct.
2131, 2140 (2016); Kucana v. Holder, 558 U.S. 233,
251 (2010). And it dictates that such provisions must
be read narrowly.” El Paso Nat. Gas Co. v. United
States, 632 F.3d 1272, 1276 (D.C. Cir. 2011); United
States v. Dohou, 948 F.3d 621, 626 (3d Cir. 2020) (“The
presumption of Article III review favors construing
jurisdiction stripping provisions narrowly.”).
It is the agency’s “heavy burden . . . to show that
Congress prohibited all judicial review of the agency’s
compliance with a legislative mandate.” Mach
Mining, 575 U.S. at 486 (quotations and alteration
omitted). The presumption of judicial review of agency
action “may be rebutted only if the relevant statute
precludes review . . . or if the action is committed to
agency discretion by law.” Weyerhaeuser, 139 S. Ct. at
370 (emphasis added) (quotation omitted) (citing 5
U.S.C. §§ 701(a)(1), (2)). To satisfy its burden, the
agency must provide “clear and convincing
indications, drawn from specific language, specific

Appendix A-46
legislative history, and inferences of intent drawn
from the statutory scheme as a whole, that Congress
intended to bar review.” Cuozzo, 136 S. Ct. at 2140
(quotations omitted). In other words, unless the
agency can show by clear and convincing evidence
that “Congress wanted an agency to police its own
conduct,” the presumption of judicial review is not
rebutted. Mach Mining, 575 U.S. at 486.7
KNRC brings its claim under the Administrative
Procedure Act (“APA”). It alleges that DOI’s failure to
submit the PECE Rule to Congress is “agency action
unlawfully withheld or unreasonably delayed.” 5
U.S.C. § 706. As the majority acknowledges, there is
no dispute that the APA confers subject matter
jurisdiction over KNRC’s claim. (Maj. Op. 19.)
Accordingly, our jurisdictional inquiry narrows to
whether the CRA strips us of authority to consider the
claim. The presumption of judicial review of agency
action applies to this inquiry. See Cuozzo, 136 S. Ct.
at 2140.
As an initial matter, DOI contends that the
presumption of reviewability is an extra-textual canon
of statutory interpretation we may not appropriately
consider. It argues that no canon can be considered
unless the text of a statute is “reasonably susceptible
of divergent interpretation.” Kucana, 558 U.S. at 251
(quotation omitted). According to DOI, because the
text of the CRA’s jurisdiction-stripping provision is

7 Though the majority acknowledges this is the correct standard
in the final footnote of its opinion, it does not appear to have
applied it in its analysis. (Maj. Op. 25 n.11.) And it leaves out the
crucial recognition that it is DOI’s burden to meet this standard,
not KNRC’s.

Appendix A-47
unambiguous, the presumption that we review agency
action is inapplicable.
But DOI conflates whether the presumption is
applicable with whether it is rebutted. As explained,
the presumption applies when a statute purports to
limit or preclude judicial review. See Cuozzo, 136 S.
Ct. at 2140. And it “is just that—a presumption.”
Block v. Cmty. Nutrition Inst., 467 U.S. 340, 349
(1984). It applies at the outset of our jurisdictional
inquiry and forms the backdrop against which we
consider the statutory text. See Make the Rd. N.Y. v.
Wolf, 962 F.3d 612, 623-24 (D.C. Cir. 2020) collecting
cases). Against this backdrop, we consider whether it
is overcome by the statutory text, legislative history,
or inferences of congressional intent drawn from the
broader statutory scheme. Block, 467 U.S. at 349;
Cuozzo, 136 S. Ct. at 2140. In other words, though
unambiguous statutory language factors into whether
the presumption has been rebutted, it is not a
predicate condition for applying the presumption.
Kucana—the case on which DOI relies—is not to
the contrary. See Make the Rd., 962 F.3d at 623-24. In
that case, the Court interpreted the scope of “the
proscription of judicial review stated in [8 U.S.C.]
§ 1252(a)(2)(B).” 558 U.S. at 236. Considering several
sources of information, including the statute’s text
and the presumption of judicial review, it concluded
that § 1252(a)(2)(B) did not strip courts of jurisdiction
to review agency action deemed “discretionary” by the
Attorney General but not by the statute. Id. at 253.
With respect to the presumption of judicial review, the
Court stated:
Any lingering doubt about the proper
interpretation of 8 U.S.C. § 1252(a)(2)(B)(ii)

Appendix A-48
would be dispelled by a familiar principle of
statutory construction: the presumption
favoring judicial review of administrative
action. When a statute is “reasonably
susceptible to divergent interpretation, we
adopt the reading that accords with
traditional understandings and basic
principles: that executive determinations
generally are subject to judicial review.”
Id. at 251 (quoting Gutierrez de Martinez v. Lamagno,
515 U.S. 417, 434 (1995)).
Lamagno, in turn, applied the presumption of
judicial review before analyzing whether the text of a
jurisdiction-stripping provision was ambiguous. 515
U.S. at 430 (“We return now, in more detail, to the
statutory language to determine whether it overcomes
the presumption favoring judicial review.”). Only after
applying the presumption of judicial review did the
Court conclude that the statutory text admitted of
multiple plausible interpretations. Id. at 434. Faced
with these competing interpretations, the Court
“adopt[ed] the reading that accords with traditional
understandings and basic principles: that executive
determinations generally are subject to judicial
review and that mechanical judgments are not the
kind federal courts are set up to render.”8 Id.

Similarly, the Court’s application of the presumption in Block,
Bowen, Cuozzo, and Mach Mining did not turn on whether the
text of the statutory provisions at issue were ambiguous. Rather,
the ambiguity or clarity of specific statutory text was germane to
whether the presumption was rebutted. See Block, 467 U.S. at
349; Bowen, 476 U.S. at 670-74; Cuozzo, 136 S. Ct. at 2140-41;
Mach Mining, 575 U.S. at 486.
8

Appendix A-49
Lamagno thus clarifies DOI’s misinterpretation of
Kucana. Nowhere in either case did the Court impose
a strict text-before-presumption order of operations.
Rather, the Court in Lamagno first determined that
the presumption of judicial review applied, then
determined that the best interpretation of ambiguous
statutory text was the one aligning with courts’
historic practice of reviewing agency action. 515 U.S.
at 430; see also Bowen, 476 U.S. at 672-73. The
Kucana Court similarly cited Lamagno to support its
conclusion that under the presumption, the “proper
interpretation” of § 1252(a)(2)(B) was the
interpretation leaving undisturbed “the unbroken line
of decisions upholding court review of administrative
denials of motions to reopen.” 558 U.S. at 251; see also
Guerrero-Lasprilla, 140 S. Ct. at 1069-70 (applying
the presumption, then adopting a less restrictive
interpretation of the text according with statutory
context and legislative history). Thus, contrary to
DOI’s assertion, Kucana does not make ambiguous
statutory text a precedent condition to the application
of the longstanding presumption that courts review
agency action.9

9 The majority appears to make a similar mistake. It states that
in Kucana, “the Court applied the presumption in favor of
judicial review only to resolve any ‘lingering doubt’ after
determining that the statute in question was susceptible to
divergent interpretations.” (Maj. Op. at 25 (quoting 558 U.S. at
251) (emphasis added).) The word “only” is the majority’s
invention—it does not appear in Kucana. As explained, the part
of Kucana quoted by the majority relies on Lamagno, and
Lamagno applies the presumption of judicial review of agency
action before determining that the statutory text is ambiguous.
It does not apply it only to resolve “lingering doubts.”

Appendix A-50
Accordingly, the presumption of judicial review of
agency action applies to our determination as to
whether § 805 of the CRA strips us of jurisdiction to
address KNRC’s claim.
B
Throughout its analysis, the majority fails to
apply this presumption. Not once does it acknowledge
the government’s “heavy burden” to show that
Congress intended to “prevent courts from enforcing
its directive[]” that agencies submit proposed rules for
approval. Mach Mining, 575 U.S. at 486. Instead of
citing Block, Cuozzo, Mach Mining, or any similar
case dealing with a statute purporting to strip federal
courts of jurisdiction to consider claims arising under
the APA, the majority cites In re Taylor, 899 F.3d 1126
(10th Cir. 2018), a bankruptcy case involving neither
agency action nor a jurisdiction-stripping provision.
That case’s general recognition that we begin
statutory interpretation with the statute’s plain
language, id. at 1129, does not displace the
foundational presumption that Article III courts
review agency action, even if the plain text of a statute
purports to strip us of jurisdiction, see Cuozzo, 136 S.
Ct. at 2140; Guerrero-Lasprilla, 140 S. Ct. at 1068; see
also Make the Rd., 962 F.3d at 624 (presumption of
judicial review and tenet that courts begin with
statutory text apply in tandem).
Block is the better guide for interpreting a
jurisdiction-stripping provision. 467 U.S. at 346; see
also Cuozzo, 136 S. Ct at 2140 (applying the Block
standard); Mach Mining, 575 U.S. at 486 (same); Kan.
ex rel. Schmidt v. Zinke, 861 F.3d 1024, 1028-29 (10th
Cir. 2017) (same). Under Block, “[w]hether and to
what extent [the CRA] precludes judicial review is

Appendix A-51
determined not only from its express language, but
also from the structure of the statutory scheme, its
objectives, its legislative history, and the nature of the
administrative action involved.” 467 U.S. at 345.10
When considering this evidence, we must be mindful
that it is DOI’s “heavy burden” to show that Congress
clearly and convincingly intended for it to police its
own compliance with the CRA. Mach Mining, 575 U.S.
at 486 (quotation omitted).
1
The CRA provides, “No determination, finding,
action, or omission under this chapter shall be subject
to judicial review.” § 805. KNRC urges a narrow
interpretation of this provision, one that does not
preclude judicial review of an agency’s failure to
comply with the CRA’s rule-submission requirement.
The majority adopts a different interpretation.
Relying on dictionary definitions of the words “under”
and “omission,” the majority concludes that § 805
encompasses any “failure,” by any actor mentioned in
the CRA, “to do something that the CRA requires.”
10 Block suggests that in the context of interpreting jurisdictionstripping statutes, courts may not consider only the statutory
text in determining whether jurisdiction is preserved. See id.
(Whether a statute precludes review “is determined not only from
its express language, but also from the structure of the statutory
scheme, its objectives, its legislative history, and the nature of
the administrative action involved.” (emphasis added)). This
instruction aligns with the Supreme Court’s repeated recognition
that the presumption of judicial review applies even if a statute
facially purports to strip or limit review. See Make the Rd., 962
F.3d at 624 (“T[he] ‘well-settled’ and ‘strong presumption’ in
favor of judicial review is so embedded in the law that it applies
even when determining the scope of statutory provisions
specifically designed to limit judicial review.” (citing GuerreroLasprilla, 140 S. Ct. at 1068; Kucana, 558 U.S. at 251-52)).

Appendix A-52
(Maj. Op. 19-21.) According to the majority, because
DOI’s refusal to submit the PECE Rule to Congress is
a failure to follow the CRA’s mandatory language, we
are stripped of jurisdiction to review KNRC’s claim.11
(Id.)
I
cannot
accept
the
majority’s
broad
interpretation. Section 805 precludes review of a
“determination, finding, action, or omission under this
chapter,” but agencies like DOI do not make “findings”
or “determinations” under the CRA. We frequently
“‘rely on the principle[] of noscitur a sociis—a word is
known by the company it keeps—to avoid ascribing to
one word a meaning so broad that it is inconsistent
with its accompanying words.’” Straub v. BNSF Ry.
Co., 909 F.3d 1280, 1287 n.8 (10th Cir. 2018) (quoting
Yates v. United States, 574 U.S. 528, 543 (2015)
(quotation omitted)). Applying that principle, we have
deemed it “anomalous” to interpret words in the same
list to cover varying sets of actors. See Potts v. Ctr. for
Excellence in Higher Educ., Inc., 908 F.3d 610, 614
(10th Cir. 2018) (affirming district court’s use of
noscitur a sociis to reject interpretation that two of six
listed acts covered former employees whereas the rest
did not). Instead, we have recognized that when
several words “are associated in a context suggesting
that the words have something in common, they
should be assigned a permissible meaning that makes
11 The majority asserts that KNRC has failed to “resist” this
conclusion. (Maj. Op. at 20-21.) It gets the burden backwards. It
is DOI’s heavy burden to show that Congress clearly and
convincingly intended to bar judicial review. See Mach Mining,
575 U.S. at 486. Thus, it is DOI’s burden to show that specific
statutory text clearly and convincingly evinces congressional
intent that agencies police their own conduct. See Cuozzo, 136 S.
Ct. at 2140. It is not KNRC’s burden to show the opposite.

Appendix A-53
them similar.” Id. (quotation omitted). We favor
interpretations ascribing to all items in a list the
attribute they share. See Smith v. Midland Brake,
Inc., 180 F.3d 1154, 1164 (10th Cir. 1999) (quoting
Beecham v. United States, 511 U.S. 368, 371 (1994)).
In light of this familiar principle, another
plausible reading of § 805 emerges. The majority
defines the word “under” to mean “subject to the
authority, control, guidance, or instruction of”—in this
case—the CRA. (Maj. Op. 19.) All four terms in § 805
describe actions taken after the CRA’s review
provisions have been triggered. Congress, for
instance, does not make a “finding” or “determination”
under the CRA until a rule has been submitted for
approval. Thus, the phrase “under this statute” may
reasonably
be
interpreted
to
concern
“determination[s], finding[s], action[s], or omission[s]”
controlled or guided by the CRA after the statute’s
review provisions have been triggered. The only action
contemplated by the CRA that precedes the operation
of its review mechanisms is an agency’s submission of
a proposed rule. But the requirement that an agency
submit a rule for approval is contained in a provision
of the statute titled, “Congressional review,” which
instructs how a submitted rule must be reviewed upon
submission. See § 801. Thus, a plausible—and
narrower—interpretation of the statute is that it
strips review of compliance with the CRA’s review
procedures, which do not arise until after an agency
has submitted a proposed rule for review. Because this
interpretation better accords with “‘traditional
understandings and basic principles’”—namely, that
agency action is subject to judicial review—it is the
better interpretation. Guerrero-Lasprilla, 140 S. Ct. at
1069 (quoting Kucana, 558 U.S. at 251)); see also Make

Appendix A-54
the Rd., 962 F.3d at 624 (jurisdiction stripping
provisions “must be read narrowly” (quotation
omitted)); Dohou, 948 at 626 (favoring narrower of
possible interpretations of jurisdiction-stripping
provision).
Further, when placed in context, the ambiguity of
the text of § 805 is cast in even sharper relief. See King
v. Burwell, 135 S. Ct. 2480, 2489 (2015) (“[W]hen
deciding whether the language is plain, we must read
the words in their context and with a view to their
place in the overall statutory scheme. Our duty, after
all, is to construe statutes, not isolated provisions.”
(quotations and citation omitted)); see also id.
(“[O]ftentimes the meaning—or ambiguity—of certain
words or phrases may only become evident when
placed in context.” (quotation omitted)). Though the
majority’s interpretation is certainly a possible
reading of the plain text, it has a significant flaw: it
renders the CRA ineffectual. See Bowen, 476 U.S. at
671 (“The statutes of Congress are not merely
advisory when they relate to administrative agencies,
any more than in other cases.” (quotation omitted)).
For example, the CRA prohibits agencies from
adopting rules “substantially similar” to rules
submitted to and disapproved by Congress. § 801(b).
The statute contains no mechanism by which
Congress can enforce this anti-circumvention
provision. Several commentators have observed that
in the absence of judicial review, an agency could
avoid the statute simply by refusing to submit rules
for approval, or it could re-issue a rule expressly
disapproved by Congress and enforce it against

Appendix A-55
private parties without consequence.12 See, e.g.,
Michael J. Cole, Interpreting the Congressional
Review Act: Why the Courts Should Assert Judicial
Review, Narrowly Construe Substantially the Same,”
and Decline to Defer to Agencies Under Chevron, 70
Admin L. Rev. 53, 68 (2018); Paul J. Larkin, Jr.,
Reawakening the Congressional Review Act, 41 Harv.
J.L. & Pub. Pol’y 187, 227, 230 (2018). Interpreting
§ 805 to preclude review of an agency’s failure to
submit a rule for approval thus raises separation-ofpowers concerns because it “place[s] in executive
hands authority to remove cases from the Judiciary’s
domain.” Kucana, 558 U.S. at 237.
Congress has addressed this problem before.
When it enacted the Regulatory Flexibility Act
(“RFA”)—another statute designed to increase agency
accountability—Congress expressly precluded judicial
review of agency action. See RFA, Pub. L. No. 96-354,
12 Dismissing this concern, the majority characterizes it as
pertinent to the surplusage canon and concludes that because the
text of § 805 is unambiguous, it need not rely on any canon of
statutory interpretation to ascertain the section’s meaning. (See
Maj. Op. 22 (citing Levorsen v. Octapharma Plasma, Inc., 828
F.3d 1227, 1232 (10th Cir. 2016)).) But whether the majority’s
interpretation of § 805 renders another provision of the CRA
toothless is pertinent to the plain meaning of § 805 because it
relates to the overall statutory scheme. See King, 135 S. Ct. at
2489. And in any event, the majority’s restrictive approach is
inappropriate when dealing with a jurisdiction-stripping
provision. As I have explained, “[w]hether and to what extent a
particular statute precludes judicial review is determined not
only from its express language, but also from the structure of the
statutory scheme, its objectives, its legislative history, and the
nature of the administrative action involved.” Block, 474 U.S. at
345 (emphasis added); see also Cuozzo, 136 S. Ct. at 2140.
Levorsen, the case on which the majority relies, does not involve
a jurisdiction-stripping provision.

Appendix A-56
§ 3(a), 94 Stat. 1164, 1169-70 (1980) (amended 1996)
(excluding from judicial review (1) “any determination
by an agency concerning the applicability of any
provision of this chapter to any action of the agency”
and (2) “the compliance or noncompliance of the
agency with the provisions of this chapter”). But in
1996, in the same omnibus legislation enacting the
CRA, Congress revoked the RFA’s preclusion of
judicial review because it led agencies to ignore the
RFA’s requirements. See Contract with America
Advancement Act of 1996, Pub. L. 104-121, tit. II,
§ 242, 110 Stat. 847, 865 (1996) authorizing judicial
review of agency action); 142 Cong. Rec. H3016 (daily
ed. Mar. 28, 1996) (statement of Rep. Ewing) (“It is
because the agencies know their decision to ignore the
RFA cannot be challenged that they almost always do
ignore the act.”); 142 Cong. Rec. H3005 (statement of
Rep. McIntosh) (“[J]udicial review . . . will serve as a
needed check on agency behavior and help enforce the
mandate of the [RFA].”)
KNRC argues that it would be incongruous for
Congress, in the same piece of legislation, to provide
for judicial review of agency action in the RFA and
strip courts of such review in the CRA. We presume
that Congress legislates in light of the presumption of
judicial review. See Kucana, 558 U.S. at 252. We also
presume that Congress legislates in light of existing
law. See id. (“[A]bsent a clear manifestation of
contrary intent, a newly-enacted or revised statute is
presumed to be harmonious with existing law and its
judicial construction.” (quotation omitted)). We
therefore must interpret the CRA to be harmonious
with the RFA.

Appendix A-57
DOI contends there is no incongruity between the
RFA and the CRA because the two statutes use
different language and “have different meanings,” and
the majority adopts this argument. (Maj. Op. 23-24.)
But neither DOI nor the majority elaborate what
those meanings might be, how they are different, or
why those differences are meaningful. Further, DOI
asserts that any incongruity between the two statutes
does not rise to the level of an irreconcilable “statutory
conflict.” But DOI fails to explain this assertion.
Without application to the CRA or the facts of this
case, it offers only the general observation that
“[r]espect for Congress as drafter counsels against too
easily finding irreconcilable conflicts in its work.” Epic
Sys. Corp. v. Lewis, 138 S. Ct. 1612, 1624 (2018).
It bears repeating that it is DOI’s “heavy burden
. . . to show that Congress prohibited all judicial
review of the agency’s compliance with a legislative
mandate.” Mach Mining, 575 U.S. at 486 (quotation
and alteration omitted). As previously explained,
“Congress rarely intends to prevent courts from
enforcing its directives to federal agencies.” Id. This
case does not present such a rare exception. In light of
the strong presumption of judicial review, I would
conclude that the text of § 805 does not strip us of
jurisdiction to review DOI’s failure to submit a
proposed rule for approval in compliance with the
CRA. I have serious doubts that Congress intended to
render the CRA “advisory” by removing a key
mechanism for enforcement of its mandate: judicial
review. Bowen, 476 U.S. at 671. Though we do not
lightly assume Congress intends for agencies to police
their own conduct, the majority identifies such
exceptional intent in the statutory text by
interpreting the word “omission” so broadly that it

Appendix A-58
reaches agency action not covered by its neighboring
terms. This interpretation is neither the only
plausible reading of § 805 nor the best one. As
explained, the jurisdiction-stripping provision can
reasonably be read to cover activities occurring after
the CRA’s review provisions have been triggered, but
not before.13 This narrower interpretation better
accords with the historic practice whereby courts
review agency action.” Id. at 672-73.
At the very least, against this backdrop, the text
of § 805 is insufficient to evince a clear and convincing
congressional intent to preclude judicial review of an
agency’s failure to submit a rule in compliance with
the statute. If Congress wanted to bar judicial review
of an agency’s refusal to submit a proposed rule for
approval, it could easily have said so expressly.
2
For the foregoing reasons, the plain language of
§ 805 is insufficient to rebut the strong presumption
of judicial review. But our inquiry does not end there.
We must also consider the legislative history and
purpose of the CRA, and the nature of DOI’s action, in
determining whether § 805 strips us of jurisdiction to
consider KNRC’s claim. Block, 467 U.S. at 345.
With respect to the legislative history, KNRC
relies on a joint statement by the CRA’s sponsors that
specifically addresses the scope of § 805. See 142 Cong.
13 The majority does not appear to argue that this interpretation
rises to the level of being “unreasonable.” Instead, it debates that
its interpretation is the better one. (Maj. Op. 21-22.) The
majority’s discussion only further demonstrates that the text of
§ 805 is susceptible to several reasonable interpretations and is
therefore, at the very least, ambiguous.

Appendix A-59
Rec. S3683 (daily ed. Apr. 18, 1996) (statement of
Sens. Nickles, Reid, & Stevens). The joint statement
specifies that the jurisdiction-stripping provision bars
review of “major rule determinations made by the
Administrator of the Office of Information and
Regulatory Affairs of the Office of Management and
Budget” and “whether Congress [has] complied with
the congressional review procedures.” Id. at S3686.
But crucially, it also states, “The limitation on judicial
review in no way prohibits a court from determining
whether a rule is in effect. For example, the authors
expect that a court might recognize that a rule has no
legal effect due to the operation of subsection[]
801(a)(1)(A)”—the CRA’s rule submission provision.
Id. That is precisely what KNRC asks us to determine
in this case: whether the PECE Rule is in effect
because DOI has failed to comply with the CRA’s rulesubmission requirement.14
This legislative history is powerful evidence that
Congress did not intend § 805 to strip us of jurisdiction
to review DOI’s failure to submit the PECE Rule for
approval. DOI contends that the joint statement is an
illegitimate tool of statutory interpretation because it
was recorded twenty days after the CRA was passed.
But post-enactment statements “may be relevant to
the extent it is persuasive.” United States v. Woods,
571 U.S. 31, 48 (2013). We do not apply a categorical
rule precluding consideration of post-enactment
legislative history.

14 The majority concludes the joint statement is not persuasive
because it contradicts the plain language of § 805.” (Maj. Op. 24.)
But as explained, the text of 805 is ambiguous. The joint
statement only further illustrates this ambiguity.

Appendix A-60
The majority similarly discounts the weight of the
joint statement, reasoning that because it was
recorded after the CRA was passed, it is “an extremely
hazardous basis for inferring the meaning of a
congressional enactment.”15 (Maj. Op. 24 (quoting
Consumer Prod. Safety Comm’n v. GTE Sylvania, Inc.,
447 U.S. 102, 118 n.13 (1980)).) But the majority
ignores the rationale on which its cited footnote is
based. The Court in GTE Sylvania stated that postenactment legislative history “does not bear strong
indicia of reliability . . . because as time passes
memories fade and a person’s perception of his earlier
intention may change.” 447 U.S. at 118 n.13.
This concern is substantially mitigated in this
case. The joint statement was recorded a mere twenty
days after the CRA was enacted, during the same
session. Cf. Jones v. United States, 526 U.S. 227, 238
(1999) (post-enactment statements are “a hazardous
basis for inferring the intent of an earlier Congress”
(emphasis added) (quotations omitted)). Moreover, as
the majority observes, Congress anticipated the
particular post-enactment statement in question: it
was informed that because there would not likely be a
conference report or floor manager’s statement prior
to the CRA’s passage, the bill’s co-sponsors intended
to insert the equivalent of a floor manager’s statement
in the congressional record at a later time. See 142
Cong. Rec. H3005; (Maj. Op. 4.) These facts specific to
15 The majority also assets that we may “cautiously” turn to
legislative history only upon “exhaust[ing] the tools of statutory
interpretation.” (Maj. O. 24 (quoting Ausmus v. Perdue, 908 F.3d
1248, 1254 (10th Cir. 2018)).) Again, the majority’s restrictive
order of operations does not apply in cases involving the
interpretation of a jurisdiction-stripping provision. See n.7,
supra. Ausmus does not involve such a provision.

Appendix A-61
the passage of the CRA undercut the general
proposition that post-enactment statements are
“hazardous” tools of interpretation “because as time
passes memories fade.” GTE Sylvania, 447 U.S. at 118
n.13; Jones, 526 U.S. at 238.
Further, as the majority also observes, the House
Judiciary Committee published a report in 2006
stating that the joint statement was “the most
authoritative contemporary understanding of the
provisions of the [CRA].” Staff of H. Comm. on the
Judiciary, Subcomm. on Commercial & Admin. L.,
109th Cong., Interim Rep. on the Admin. Law, Process
& Procedure Project for the 21st Century 86 n.253
(Comm. Print 2006); (Maj. Op. 5.) Although the
hazards of relying on post-enactment legislative
history are more pertinent here, the Committee’s
report expressly notes that the joint statement
“arguably merits close consideration by a reviewing
court as a contemporaneous, detailed, in-depth
statement of purpose and intent by the principal
sponsors of the law.” Interim Rep., at 86 n.253.
I reiterate that it is DOI’s heavy burden to show
that our jurisdiction to review KNRC’s claim has been
stripped. DOI has pointed to no legislative history
supporting its interpretation of § 805. Even if the
majority were correct that the legislative history in
this case is of limited value, it weighs in KNRC’s favor.
3
Turning to the CRA’s purpose, the statute’s
sponsors explained that it is designed to “reclaim[] for
Congress some of its policymaking authority, without
at the same time requiring Congress to become a
super regulatory agency.” 142 Cong. Rec. S3683.

Appendix A-62
Thus, the CRA’s rule-submission requirement in
particular is meant to “give[] the public the
opportunity to call the attention of politically
accountable, elected officials to concerns about new
agency rules.” Id. In doing so, the CRA seeks to restore
the “delicate balance between the appropriate roles of
the Congress in enacting laws, and the Executive
Branch in implementing those laws.” Id. at S3683.
The majority contends that the statute’s purpose
“tells us nothing about whether Congress intended
district courts to review agency compliance with the
CRA’s reporting requirements.” (Maj. Op. 23.) But as
explained above, Congress specifically contemplated
such review. See 142 Cong. Rec. S3686. Further, as
the Supreme Court has repeatedly recognized,
agencies are especially likely to commit “‘legal lapses
and violations’” when doing so carries no consequence.
Weyerhaeuser, 139 S. Ct. at 370 (quoting Mach
Mining, 575 U.S. at 489). This observation appears to
have been borne out with respect to the CRA—
agencies have failed to submit hundreds of rules for
approval, despite the statute’s clear mandate. See
Phillip A. Wallach & Nicholas W. Zeppos, Brookings
Inst. Report, How powerful is the Congressional
Review Act? (Apr. 4, 2017); Curtis W. Copeland, Cong.
Rsch. Serv., Congressional Review Act: Rules Not
Submitted to GAO and Congress (Dec. 29, 2009).
Absent judicial review, there is no mechanism by
which the CRA can be enforced.16 Because the impetus

DOI contends that “Congress retains adequate means to
induce agencies to comply with the CRA’s requirements through
its lawmaking, investigatory, and appropriation powers.” This
sweeping argument is unpersuasive. Were the agency able to
meet its heavy burden to rebut the presumption of judicial review

16

Appendix A-63
for passing the CRA was to restore congressional
oversight over agency rulemaking, it seems especially
unlikely that Congress intended that the rulesubmission requirement—which triggers the CRA’s
review procedures—be excluded from judicial review.
See Cole, at 68; Larkin, at 230.
In sum, it is doubtful that Congress hamstrung its
own efforts to restore democratic accountability to
agency rulemaking when enacting the CRA. See In re
Taylor, 899 F.3d at 1129 (“The goal of statutory
interpretation is to ascertain the congressional intent
and give effect to the legislative will.” (quotation
omitted)). Accordingly, the purpose of the CRA further
supports interpreting § 805 to stop short of precluding
judicial review of agency compliance with the statute’s
rule-submission requirement.
4
Finally, regarding “the nature of the
administrative action involved,” Block, 474 U.S. at
345, KNRC argues that DOI’s failure to submit the
PECE Rule for approval is the failure to take the sort
of discrete and mandatory action constituting agency
action unlawfully denied or unreasonably delayed, see
Norton v. S. Utah Wilderness All., 542 U.S. 55, 64
(2004); 5 U.S.C. § 706(1) (“The reviewing court shall
compel agency action unlawfully withheld or
unreasonably delayed.”). DOI does not contest this
point, and the majority agrees there is no dispute that
DOI’s action falls within the scope of the APA. (Maj.
Op. 19.) Accordingly, the nature of the administrative
action involved also weighs in KNRC’s favor.
merely by pointing to general powers of Congress available in
every circumstance, the presumption would be meaningless.

Appendix A-64
C
In light of the foregoing, I would conclude that
DOI has failed to rebut the strong presumption that
we have jurisdiction to review its refusal to submit the
PECE Rule to Congress for approval. As stated,
whether a statute precludes or limits our jurisdiction
is determined not only from its express language, but
also from the structure of the statutory scheme, its
objectives, its legislative history, and the nature of the
administrative action involved.” Block, 474 U.S. at
345. The text of § 805 is ambiguous because it admits
of at least two plausible interpretations: it could reach
agency action occurring before the CRA’s review
provisions are triggered, or it could reach only those
actions taken pursuant to those triggered provisions.
Properly viewing the text in the context of the
statutory scheme underscores the ambiguity of the
text. See King, 135 S. Ct. at 2489. Without judicial
review of an agency’s failure to submit a rule for
approval, the CRA’s review provisions are never
triggered, and the statute becomes unenforceable. We
generally presume that Congress does not leave it to
agencies to police their own conduct, Mach Mining,
575 U.S. at 486, and that presumption is particularly
apt in this case because the purpose of the CRA is to
provide increased congressional oversight of, and
restore democratic accountability to, the agency
rulemaking process. The CRA’s legislative history,
moreover, specifically contemplates judicial review of
an agency’s failure to comply with the statute’s rulesubmission requirement, and such a failure is
unquestionably agency action unlawfully withheld or
delayed under the APA.

Appendix A-65
On the other side of the ledger, DOI largely fails
to make an affirmative case that Congress intended to
strip courts of jurisdiction to review an agency’s
failure to submit a rule for approval. It relies almost
exclusively on the text of § 805. But as explained, the
text is ambiguous. It does not demonstrate clearly and
convincingly that Congress intended to prohibit all
judicial review of an agency’s noncompliance with the
statutory mandate. See Mach Mining, 575 U.S. at 486;
Cuozzo, 136 S. Ct. at 2140. Given that the text of § 805
“is
reasonably
susceptible
to
divergent
interpretation,” the majority should have “adopt[ed]
the reading that accords with traditional
understandings and basic principles: that executive
determinations generally are subject to judicial
review.” Guerrero-Lasprilla, 140 S. Ct. at 1069
(quoting Kucana, 558 U.S. at 251). That means
interpreting § 805 to not preclude judicial review of
DOI’s noncompliance with the CRA’s rule-submission
requirement.
The majority asserts that its contrary
interpretation is consistent with those of the Ninth
and D.C. Circuits. (Maj. Op. 25-26.) But as explained,
the Ninth Circuit in Center for Biological Diversity did
not address a challenge to agency action. 946 F.3d at
560. Although the D.C. Circuit did address such a
challenge in Montanans For Multiple Use v.
Barbouletos, 568 F.3d 225 (D.C. Cir. 2009), the court’s
analysis in that case is erroneous. It comprises two
sentences:
[Section 805] denies courts the power to void
rules on the basis of agency noncompliance
with the [CRA]. The language of § 805 is

Appendix A-66
unequivocal and precludes review of th[e]
claim. . . .
Id. at 229. Our sibling circuit failed to apply the strong
presumption of judicial review of agency action; cite
any case law for its analysis; or consider any of the
evidence identified in Block, Mach Mining, Cuozzo,
and similar on-point cases. Further, it determines
that the text of § 805 is “unequivocal,” but our inquiry
must be whether the text is “unambiguous.” These are
not the same.17
Additionally, the majority asserts that its
interpretation of § 805 is consistent with a footnote in
Via Christi Regional Medical Center, Inc. v. Leavitt,
509 F.3d 1259 (10th Cir. 2007), abrogated on other
grounds by Azar v. Allina Health Services, 139 S. Ct.
1804 (2019). The footnote states that the CRA
“specifically precludes judicial review of an agency’s
compliance with its terms.” Id. at 1271 n.11. This
statement is, however, dicta.
Via Christi did not involve a CRA claim or purport
to address one. Instead, it involved whether the
Secretary of Health and Human Services lawfully
denied a hospital’s request for reimbursement for
losses due to the consolidation of several hospitals. Id.
at 1261. The hospital plaintiff principally argued that
the Secretary’s decision was inconsistent with the text
of a Health and Human Services regulation regarding
Medicare, and we agreed. Id. at 1272-73. It was only
in its opening brief that the hospital argued in the
17 The familiar example of “no vehicles in the park”—an
unequivocal but nevertheless ambiguous mandate—illustrates
this point. See Nat’l Fed’n of Indep. Bus. v. Sebelius, 567 U.S. 519,
562 (2012); H.L.A. Hart, Positivism and the Separation of Law
and Morals, 71 Harv. L. Rev. 593, 607 (1958).

Appendix A-67
alternative that a 2000 “program memorandum” was
a “rule” covered by the CRA but not submitted to
Congress. See Appellant’s Opening Brief, Via Christi,
509 F.3d 1259. “Questions which merely lurk in the
record are not resolved, and no resolution of them may
be inferred.” Ill. State Bd. of Elections v. Socialist
Workers Party, 440 U.S. 173, 183 (1979) (quotation
omitted).
Further, a statement is dicta and not binding on a
future court if it is “unnecessary to the outcome of the
earlier case and therefore perhaps not as fully
considered as it would have been if it were essential to
the outcome.” Exby-Stolley v. Bd. of Cty. Comm’rs,
Weld Cty., Colo., 906 F.3d 900, 912 (10th Cir. 2018),
reh’g en banc granted sub nom. Exby-Stolley v. Bd. of
Cty. Comm’rs, 910 F.3d 1129 (10th Cir. 2018)
(quotation omitted). The Via Christi court’s statement
regarding the CRA was unnecessary to the outcome of
the case. Further, as explained above, full
consideration of whether § 805 strips us of jurisdiction
to review an agency’s refusal to submit a proposed rule
to Congress entails applying the strong presumption
of review and considering the statutory scheme,
objectives, legislative history, and the nature of the
administrative action involved. Block, 474 U.S. at 345.
That the Via Christi court considered none of these
things suggests it did not analyze the CRA issue as
fully as it would have if it were essential to the
outcome of the case. Accordingly, I would conclude
that its statement was dicta. See Exby-Stolley, 906
F.3d at 912.
III
One issue remains: DOI argues that the statute of
limitations has expired. Under 28 U.S.C. § 2401(a),

Appendix A-68
“every civil action commenced against the United
States shall be barred unless the complaint is filed
within six years after the right of action first accrues.”
Id. A right of action first accrues under § 2401(a)
“when all events have occurred which fix the liability
of the Government and entitle the claimant to
institute an action.” Ute Distrib. Corp. v. Sec’y of
Interior of U.S., 584 F.3d 1275, 1282 (10th Cir. 2009)
(quotation omitted). DOI argues that KNRC’s action
first accrued in 2003, when the PECE Rule was
adopted. KNRC counters that its action first accrued
in 2014, when DOI announced the listing of the lesser
prairie chicken. Neither party is correct.
As explained in Part I, supra, KNRC’s alleged
injury in this case is the undermining of its ability to
obviate the need for listing the lesser prairie chicken
as threatened. KNRC alleges the uncertain validity of
the PECE Rule weakens its ability to secure the
“positive engagement” of local governments and
private landowners necessary for its conservation
plan to satisfy the Rule’s two criteria. Thus, contrary
to DOI’s suggestion, KNRC’s claim did not accrue
when it received notice that the PECE Rule was
promulgated because KNRC was not yet injured at
that time. See Carnes v. United States, 186 F.2d 648,
650 (10th Cir. 1951) (claim accrues when party suffers
injury); see also Impact Energy Res., LLC v. Salazar,
693 F.3d 1239, 1245-46 (10th Cir. 2012) (“[T]he
limitations provision in 28 U.S.C. § 2401, not the
APA’s notice provision, determines the limitations
start date in the usual APA case.”).
Rather, KNRC’s claim first accrued on
December 11, 2012, when DOI proposed listing the
lesser prairie chicken as a threatened species under

Appendix A-69
the ESA. See Listing the Lesser Prairie-Chicken as a
Threatened Species, 77 Fed. Reg. 73,828 (Dec. 11,
2012); Maj. Op. 7.) KNRC acknowledges that this 2012
proposal spurred its decision to develop the Plan. Its
asserted injuries would have arisen no earlier than
that time. Because the limitations period for KNRC to
bring its claim runs for six years from accrual, KNRC
had until December 11, 2018, to bring this lawsuit.
KNRC filed its complaint on April 10, 2018.
Accordingly, its suit was timely.
IV
For the foregoing reasons, I would hold that
KNRC has standing to challenge DOI’s failure to
submit the PECE Rule to Congress; that the CRA does
not strip this court of jurisdiction to review KNRC’s
claim; and that KNRC timely brought suit.
Accordingly, I would reverse the judgment of the
district court and remand this case for further
proceedings. I respectfully dissent.

Appendix B-1
Filed 4/8/2019
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
KANSAS NATURAL
RESOURCE COALITION,
Plaintiff,
vs.
U.S. DEPARTMENT OF
THE INTERIOR; RYAN
ZINKE, in his official
capacity as Secretary of the
Department of the Interior;
U.S. FISH AND WILDLIFE
SERVICE; and GREG
SHEEHAN, in his official
capacity as Principal Deputy
Director of the U.S. Fish and
Wildlife Service,

Case No. 18-1114EFM-GEB

Defendants.
MEMORANDUM AND ORDER
Plaintiff Kansas Natural Resource Coalition
(“KNRC”) filed suit against four Defendants: the
United States Department of the Interior; Ryan
Zinke, Secretary of the Department of the Interior; the
United States Fish and Wildlife Service; and Greg
Sheehan, Principal Deputy Director of the Fish and
Wildlife Service. Plaintiff claims that Defendants
unreasonably delayed submitting to Congress a rule
under the Congressional Review Act (“CRA”), 5 U.S.C.

Appendix B-2
§ 801, et seq., and Plaintiff asserts that this alleged
failure affects its conservation plan for the lesser
prairie chicken. Defendants filed a Motion to Dismiss
(Doc. 17) asserting that (1) the CRA prohibits judicial
review of this issue, (2) Plaintiff cannot establish
Article III standing, and (3) Plaintiff’s claim is barred
by the statute of limitations. Because the Court finds
that judicial review is precluded, the Court grants
Defendants’ motion.
I. Factual, Statutory,
and Procedural Background
Plaintiff KNRC is an organization of county
governments from western Kansas and Wichita that
promotes local government participation in federal
and state policy on conservation and natural resource
issues. Defendant Department of the Interior is an
agency responsible for administering the Endangered
Species Act (“ESA”) for nonmarine species. Defendant
Zinke is Secretary of the Department of Interior and
oversees the administration of the ESA. He is sued in
his official capacity. Defendant Fish and Wildlife
Service is an agency of the Department of Interior and
has been delegated day-to-day administration of the
ESA, including the listing of threatened and
endangered nonmarine species. Defendant Sheehan is
Principal Deputy Director and Acting Director of the
Fish and Wildlife Service and oversees administration
of the ESA. He is sued in his official capacity.
The ESA provides for the listing of endangered
and threatened species and imposes federal
regulations to address threats to those species.
Endangered species are currently in danger of
extinction throughout all or a significant portion of
their range while threatened species are likely to

Appendix B-3
become endangered within the foreseeable future. The
Fish and Wildlife Service considers five factors when
deciding whether a species should be listed. If a
species is listed, several significant federal
regulations then follow.
In 2003, the Fish and Wildlife Service developed
and announced a Policy for Evaluating Conservation
Efforts When Making Listing Decisions (“PECE”).
This policy
provides direction to Service personnel in
determining how to consider a conservation
agreement when making a decision on
whether a species warrants listing under the
[ESA]. It also provides information to the
groups interested in developing agreements
or plans that would contribute to making it
unnecessary for the Services to list a species
under the [ESA].1
PECE establishes two criteria for evaluating state and
private conservation plans and provides guidance on
those factors.2
Congress enacted the CRA in 1996. The CRA
requires agencies to submit new rules to Congress for
review before they can go into effect. 5 U.S.C.
§ 801(a)(1)(A) states
Before a rule can take effect, the Federal
agency promulgating such rule shall submit
to each House of the Congress and to the
Policy for Evaluation of Conservation Efforts When Making
Listing Decisions, 68 Fed. Reg. 15100-02, 15101, 2003 WL
1568842 (Mar. 28, 2003).
1

2

Id.

Appendix B-4
Comptroller General a report containing—
(i) a copy of the rule; (ii) a concise general
statement relating to the rule, including
whether it is a major rule; and (iii) the
proposed effective date of the rule.
Another provision of the CRA, 5 U.S.C. § 805, provides
that “[n]o determination, finding, action, or omission
under this chapter shall be subject to judicial review.”
Plaintiff alleges that PECE was not submitted to
Congress as required by the CRA. The Fish and
Wildlife Service has treated PECE as being in effect
since 2003.
The lesser prairie chicken is a small species of
grouse found in Kansas, Colorado, Oklahoma, Texas,
and New Mexico. In 2012, the Fish and Wildlife
Service proposed to list the species as threatened
under the ESA. States, property owners, and
conservation groups worked with the Western
Association of Fish and Wildlife Agencies to develop
and implement a rangewide conservation plan for the
species. KNRC developed a Lesser Prairie Chicken
Conservation, Management and Study Plan in 2013,
to study and conserve the lesser prairie chicken,
which its member counties have adopted.
In 2014, the Fish and Wildlife Service listed the
lesser prairie chicken as a threatened species.
Participants in the conservation plan challenged the
listing of the species. In 2015, the District Court for
the Western District of Texas struck down the listing.3
The court found that the Fish and Wildlife Service did
not properly follow its own rule, PECE, in conducting
3 Permian Basin Petroleum Ass’n v. Dep’t of Interior, 127 F.
Supp. 3d 700 (W.D. Tex. 2015).

Appendix B-5
the analysis.4 Thus, the court determined that it was
appropriate to vacate the listing of the lesser prairie
chicken as a threatened species. The Fish and Wildlife
Service withdrew its listing.
Petitions to relist the lesser prairie chicken as a
threatened species were subsequently filed. In 2016,
the Fish and Wildlife Service began reviewing (and is
currently reviewing) these petitions to determine
whether listing of the lesser prairie chicken as a
threatened species is warranted.
Plaintiff filed suit in this Court on April 10, 2018,
In this action, Plaintiff claims that the Fish and
Wildlife Service’s treatment of PECE as lawfully in
effect (despite failing to submit it to Congress) creates
substantial regulatory uncertainty and litigation risk
which undermines Plaintiff’s conservation plan.
Plaintiff requests a declaration that PECE was
unlawfully withheld or unreasonably delayed from
Congress. In addition, Plaintiff requests that the
Court require the Fish and Wildlife Service to submit
PECE to Congress.
Defendants filed a Motion to Dismiss arguing that
(1) there is no judicial review on this issue, (2) Plaintiff
lacks standing, and (3) the statute of limitations has
run.
II. Legal Standard
Defendants bring their motion pursuant to Fed.
R. Civ. P. 12(b)(1) and (6). First, they assert that the
Court lacks subject matter jurisdiction. Motions to
dismiss for lack of subject matter jurisdiction
generally take one of two forms: (1) facial attacks,
4

Id. at 707-24.

Appendix B-6
which question the sufficiency of the allegations in the
complaint; or (2) factual attacks, which challenge the
content of the allegations regarding subject matter
jurisdiction.5
They also contend that Plaintiff fails to state a
claim under which relief may be granted. The Court
must decide “whether the complaint contains ‘enough
facts to state a claim to relief that is plausible on its
face.’”6 A claim is facially plausible if the plaintiff
pleads facts sufficient for the Court to reasonably infer
that the defendant is liable for the alleged
misconduct.7 Under Rule 12(b)(6), the Court must
accept as true all factual allegations in the complaint,
but need not afford such a presumption to legal
conclusions.8 Viewing the complaint in this manner,
the Court must decide whether the plaintiff’s
allegations give rise to more than speculative
possibilities.9 If the allegations in the complaint are
“so general that they encompass a wide swath of
conduct, much of it innocent, then the plaintiffs ‘have
not nudged their claims across the line from
conceivable to plausible.’”10

5

Holt v. United States, 46 F.3d 1000, 1002-03 (10th Cir. 1995).

Ridge at Red Hawk, LLC v. Schneider, 493 F.3d 1174, 1177
(10th Cir. 2007) (quoting Bell Atlantic Corp. v. Twombly, 550
U.S. 544, 570 (2007)); see also Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009).
6

7

Iqbal, 556 U.S. at 678 (citing Twombly, 550 U.S. at 556).

8

Iqbal, 556 U.S. at 678–79.

9

See id. at 678.

v. Oklahoma, 519 F.3d 1242, 1247 (10th Cir. 2008)
(quoting Twombly, 550 U.S. at 570).
10 Robbins

Appendix B-7
III. Analysis
Defendants assert three arguments as to why
Plaintiff’s Complaint should be dismissed. They state
that (1) the CRA precludes judicial review of the issue,
(2) Plaintiff lacks standing, and (3) the statute of
limitations bars Plaintiff’s claim. The Court will only
address Plaintiff’s first argument.
In this case, Plaintiff claims that the Fish and
Wildlife Service violated the CRA (5 U.S.C. § 805) by
failing to submit PECE (a rule) to Congress and the
Comptroller General when it issued it in 2003.
Plaintiff does not actually take issue with PECE.
Instead, Plaintiff is in favor of it and wants it
submitted to Congress to apparently make it binding.
Defendants argue that § 805 is unambiguous and
precludes judicial review. Defendants cite several
cases to support their argument. Plaintiff agrees that
the statutory language, read in isolation, could
support Defendants’ argument that judicial review is
precluded. Plaintiff asserts, however, that other text,
canons of statutory interpretation, and legislative
history do not support this interpretation. Plaintiff
also directs the Court’s attention to several cases in
which district courts considered a rule’s effect under
the CRA.11
Pursuant to 5 U.S.C. § 801(a)(1)(A), before a rule
can take effect, a federal agency promulgating the new
rule is required to submit to Congress and the
Comptroller General (1) a copy of the rule, (2) a concise
statement relating to the rule (including whether it is
a major rule), and (3) the proposed effective date. After
the agency does so, there is a timeframe in which
11 See

infra note 39 and accompanying text.

Appendix B-8
Congress must act to disapprove of such rule with a
joint resolution.12 If Congress disapproves of the rule,
the President may sign or veto the joint resolution.13
If the joint resolution passes, the rule “shall not take
effect (or continue).”14 Another provision of the CRA,
5 U.S.C. § 805, provides that “[n]o determination,
finding, action, or omission under this chapter shall
be subject to judicial review.”
“The goal of statutory interpretation is to
ascertain the congressional intent and give effect to
the legislative will.”15 Generally, a court looks to the
plain language of the statute and if the meaning is
clear, the analysis ends.16 Context also matters in
determining whether a statute’s meaning is plain or
ambiguous.17
Section 805 states that no omission shall be
subject to judicial review. By its plain language, § 805
prohibits judicial review of the Fish and Wildlife
Service’s omission of sending PECE to Congress.
Nothing in the plain language of the statute indicates
otherwise.

12 5

U.S.C. § 802(a).

13 8

U.S.C. § 801(b)-(c).

14

8 U.S.C. § 801(b)(1).

In re Taylor, 899 F.3d 1126, 1129 (10th Cir. 2018) (quotation
marks and citation omitted).
15

Coffey v. Freeport McMoran Copper & Gold, 581 F.3d 1240,
1245 (10th Cir. 2009) (citation omitted).
16

Dalzell v. RP Steamboat Springs, LLC, 781 F.3d 1201, 1207
(10th Cir. 2015).
17

Appendix B-9
Indeed, several district courts and at least one
circuit court have adopted this viewpoint.18 In
Montanans for Multiple Use v. Barbouletos,19 the
plaintiffs alleged that the United States Forest
Service failed to submit its proposed management
plan to Congress in violation of the CRA.20 The
District Court for the District of Columbia found that
there was little case law interpreting § 805, but the
case law available “support[ed] the plain reading of
the statute” which precluded judicial review.21 The
court noted that the statute was unambiguous.22 The
court disagreed with the plaintiffs’ argument that if
the court were to interpret § 805 as prohibiting
judicial review that it would “impliedly repeal the
grant of judicial authority under the APA to declare
whether certain regulations are effective and in
accordance with law.”23 Instead, the court determined
that the statutory language unambiguously provided
that “no determination, finding, action, or omission
under this chapter shall be subject to judicial
review.”24 The court concluded that “[t]he ‘chapter’ to
which this provision refers is Chapter 8 [the CRA].”
Thus, it found that it was “statutorily barred from
As will be noted below, the Tenth Circuit addressed the CRA
in a footnote.
18

19

542 F. Supp. 2d 9 (D.D.C. 2008).

20 Id. at 20 (referring to the CRA as the Small Business
Regulatory Enforcement Fairness Act (“SMREFA”). The CRA
was part of the SBREFA, and some courts refer to it as the
SBREFA.
21

Id.

22

Id.

23

Id.

24

Id. (quoting 5 U.S.C. § 805) (emphasis added).

Appendix B-10
reviewing defendants’ alleged failure” to submit their
plans and rules to Congress and dismissed the case for
lack of subject matter jurisdiction.25
The District of Columbia Circuit of Appeals
affirmed the district court’s decision.26 In considering
the CRA and the specific language of § 801(a)(1)(A)
and § 805, the circuit concluded that § 805’s language
was unequivocal and “denies courts the power to void
rules on the basis of agency noncompliance with the
Act.”27 Thus, the circuit found that it precluded review
of the claim.28 Several other district courts concluded
similarly.29

25

Id. at 20-21.

Montanans for Multiple Use v. Barbouletos, 568 F.3d 225 (D.C.
Cir. 2009).

26

27

Id. at 229.

28

Id.

See United States v. Carlson, 2013 WL 5125434, at *14-15 (D.
Minn. 2013) (stating that § 805, and the great weight of case law,
precludes review of an agency’s failure to comply with the CRA);
Forsyth Mem’l Hosp. v. Sebelius, 667 F. Supp. 2d 143, 150 (D.D.C.
2009) (noting that § 805 precludes judicial review); In re
Operation of the Missouri River Sys. Litig., 363 F. Supp. 2d 1145,
1173 (D. Minn. 2004) (finding that the Fish and Wildlife’s
designation of a critical habitat was not a major rule and that its
determination was not subject to judicial review pursuant to
§ 805), vacated on other grounds, 421 F.3d 618 (8th Cir. 2015);
United States v. Am. Elect. Power Serv., 218 F. Supp. 2d 931, 949
(S.D. Ohio 2002) (determining that the plain language in § 805
was a jurisdictional bar to reviewing a claim that a rule was not
in effect because it was not submitted to Congress pursuant to
§ 801(a)(1)(A)); Tex. Sav. & Cmty. Bankers Ass’n v. Fed. Hous.
Fin. Bd., 1998 WL 842181, *7 and n.15 (W.D. Tex. 1998) (finding
that the language in § 805 “could not be plainer” and explicitly
precluded the defendant’s alleged omission from review).
29

Appendix B-11
Furthermore, there is authority in the Tenth
Circuit addressing the CRA. Although the statement
may be dicta, the Tenth Circuit stated in a footnote
that § 805 prohibits judicial review.30 It noted that a
party’s reliance on the CRA was misplaced and stated
that “[t]he [CRA] specifically precludes judicial review
of an agency’s compliance with its terms.”31 More
recently, the D.C. Circuit Court of Appeals again
found that the statutory language in § 805 forecloses
judicial review of an agency’s non-compliance with the
act.32
Only two district court cases specifically have
found that § 805 does not preclude relief when an
agency fails to submit a rule to Congress under the
See Via Christi Reg’l Med. Ctr. v. Leavitt, 509 F.3d 1259, 1271
n.11 (10th Cir. 2007). The parties disagree over the importance
of the Tenth Circuit’s statement. Plaintiff even filed a Motion to
Strike (with an accompanying 9-page memorandum) seeking to
strike a paragraph from Defendants’ response to Plaintiff’s
second notice of supplemental authority (Doc. 30). In Plaintiff’s
motion to strike, it contends that Defendants improperly and
untimely try to raise the argument of the importance of the Via
Christi footnote. Plaintiff also contends that Defendants
previously abandoned their argument when they failed to
address it in their reply brief. The Court disagrees. Defendants
cited Via Christi to the Court in its Motion to Dismiss. The
supplemental authority that Plaintiff provided to the Court
makes note of the Via Christi decision, and Defendants are
entitled to address it. Furthermore, the Court must consider
Tenth Circuit opinions regardless of the parties’ citations to them
or the parties’ beliefs on whether the statements are dicta.
30

31

Id. (citing 5 U.S.C. § 805).

See Washington All. of Tech. Workers v. U.S. Dep’t of Homeland
Sec., 892 F.3d 332, 346 (D.C. Cir. 2018) (holding that § 805
prohibited judicial review and upholding the dismissal of
allegations of procedural irregularities under the CRA).
32

Appendix B-12
CRA. In the first case, in an unpublished decision, the
Southern District of Indiana found that § 805 did not
preclude review of whether the EPA violated the CRA
by failing to submit an agency rule to Congress.33 That
court concluded that § 805 was ambiguous because it
was susceptible to two different meanings, one being
that “Congress only intended to preclude judicial
review of Congress’ own determinations, findings,
actions, or omissions made under the CRA after a rule
has been submitted to it for review.”34 It found that
allowing agencies to evade review of their omissions
“would be at odds with the purpose of the CRA, which
was to provide a check on administrative agencies’
power to set policies and essentially legislate without
Congressional oversight.”35 Furthermore, it found
that § 805’s reference to “under this chapter” was only
applicable to findings and determinations by Congress
because agencies do not making findings and
determinations under the chapter.36 Thus, the court
concluded that it had jurisdiction “to review whether
an agency rule is in effect that should have been
reported to Congress pursuant to the CRA.”37
More recently, the United States District Court
for the District of Idaho addressed the issue.38 After
considering the language in the statute, the district
United States v. S. Ind. Gas & Elec. Co., 2002 WL 31427523,
at *6 (S.D. Ind. 2002).
33

34

Id. at *5 (emphasis added).

35

Id.

36

Id.

37

Id. at *6.

Tugaw Ranches, LLC v. U.S. Dep’t of the Interior, --- F. Supp.
3d ---, 2019 WL 938865 (D. Idaho 2019).
38

Appendix B-13
and circuit court opinions addressing the statute,39
the legislative history, and policy concerns, the court
ultimately found that § 805 was ambiguous and did
not clearly prohibit judicial review.40 Thus, it
concluded that it had jurisdiction to hear the claims in
the case.41
Although most of the above-cited decisions are not
binding on this Court, the Court finds that the more
persuasive authority is the line of cases holding that
§ 805 is unambiguous and precludes judicial review.
Furthermore, there is a statement by the Tenth
Circuit that § 805 prohibits judicial review of an
agency’s compliance with its terms.42 Even if this
statement is dicta, it is indicative of the stance that
the Tenth Circuit would take if the issue was squarely
before it. The Court finds it unnecessary to consider

The court acknowledged the numerous district court and
circuit court opinions finding that the statute’s language was
plain and unambiguous. Still, the court found that the analysis
in these cases was lacking and did not provide clear guidance. Id.
at *4-5. The court also noted several district and circuit court
opinions finding that § 805 did not prohibit judicial review,
including Nat’l Res. Defense Council v. Abraham, 355 F.3d 179,
201-02 (2d Cir. 2004) and United States v. Reece, 956 F. Supp. 2d
736, 743-46 (W.D. La. 2013). Id. at *5. This Court finds that the
majority of the latter opinions that the District of Idaho cited to
only peripherally addressed § 805 and did not specifically
address the effect of the language in § 805 to its review of the
issue in the case before it.
39

40

Id. at *9.

41

Id.

Via Christi Reg’l Med. Ctr., 509 F.3d at 1271 n.11 (stating that
“[t]he [CRA] specifically precludes judicial review of an agency’s
compliance with its terms.”).

42

Appendix B-14
the legislative history
unambiguous.43

because

the

statute

is

Accordingly, the Court finds that § 805 prohibits
judicial review of the Fish and Wildlife’s omission of
submitting PECE to Congress. Thus, the Court
dismisses Plaintiff’s claim for lack of subject matter
jurisdiction.
IT IS THEREFORE ORDERED that
Defendants’ Motion to Dismiss (Doc. 17) is
GRANTED.
IT IS FURTHER ORDERED that Plaintiff’s
Motion to Strike (Doc. 30) is DENIED.
This case is closed.
IT IS SO ORDERED.
Dated this 8th day of April, 2019.
s/ Eric F. Melgren
ERIC F. MELGREN
UNITED STATES DISTRICT JUDGE
43 Here, there is no pre-enactment legislative history. Instead,
there is only post-enactment legislative history (although it is
dated approximately 20 days after enactment). The Court also
notes that, in 2017, legislation was introduced to add an
additional provision to § 805. If adopted, the statute would add a
provision stating: “Notwithstanding subsection (a), a court may
determine whether a Federal agency has completed the
necessary requirements under this chapter for a rule to take
effect.” 2017 Cong US HR 26, 115th Cong., 1st Session (Jan. 5,
2017). The effect of this legislation would allow for judicial review
of whether an agency followed the proper rulemaking procedures
(the action that Plaintiff complains about in this case). This
proposed additional language reinforces that the current
statutory language prohibits judicial review of agency actions.
Otherwise, it would not be necessary to add. Congress, however,
has not passed this legislation since it was proposed.

Appendix C-1
Filed 10/19/2020
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
____________________________
KANSAS NATURAL
RESOURCE COALITION,
Plaintiff - Appellant,
v.
UNITED STATES
DEPARTMENT OF
INTERIOR; et al.,

No. 19-3108
(D.C. No. 6:18-CV01114-EFM-GEB)
(D. Kan.)

Defendants - Appellees.
____________________________
ORDER
____________________________
Before BRISCOE, LUCERO, and McHUGH, Circuit
Judges.
____________________________

This matter is before the court on Appellant’s Petition
for Rehearing En Banc (the “Petition”). Having carefully
considered the petition and the filings in this appeal, we
direct as follows:
Appellant’s request for panel rehearing is denied by
a majority of the panel members pursuant to Fed. R. App.
P. 40. Judge Lucero would grant panel rehearing.

Appendix C-2

The Petition was transmitted to all judges of the court
who are in regular active service. As no member of the
panel and no judge in regular active service on the court
requested that the court be polled, the petition seeking
rehearing en banc is denied pursuant to Fed. R. App. P.
35(f).
Entered for the Court
s/ Christopher M. Wolpert
CHRISTOPHER M. WOLPERT, Clerk

Appendix D-1
5 U.S.C. § 801. Congressional review
(a)(1)(A) Before a rule can take effect, the Federal
agency promulgating such rule shall submit to each
House of the Congress and to the Comptroller General
a report containing—
(i) a copy of the rule;
(ii) a concise general statement relating to
the rule, including whether it is a major rule; and
(iii) the proposed effective date of the rule.
(B) On the date of the submission of the report
under subparagraph (A), the Federal agency
promulgating the rule shall submit to the Comptroller
General and make available to each House of
Congress—
(i) a complete copy of the cost-benefit
analysis of the rule, if any;
(ii) the agency’s actions relevant to sections
603, 604, 605, 607, and 609;
(iii) the agency’s actions relevant to sections
202, 203, 204, and 205 of the Unfunded Mandates
Reform Act of 1995; and
(iv) any other relevant information or
requirements under any other Act and any relevant
Executive orders.
(C) Upon receipt of a report submitted under
subparagraph (A), each House shall provide copies of
the report to the chairman and ranking member of
each standing committee with jurisdiction under the
rules of the House of Representatives or the Senate to
report a bill to amend the provision of law under
which the rule is issued.

Appendix D-2
(2)(A) The Comptroller General shall provide a
report on each major rule to the committees of
jurisdiction in each House of the Congress by the end
of 15 calendar days after the submission or
publication date as provided in section 802(b)(2). The
report of the Comptroller General shall include an
assessment of the agency’s compliance with
procedural steps required by paragraph (1)(B).
(B) Federal agencies shall cooperate with the
Comptroller General by providing information
relevant to the Comptroller General’s report under
subparagraph (A).
(3) A major rule relating to a report submitted
under paragraph (1) shall take effect on the latest of—
(A) the later of the date occurring 60 days
after the date on which—
(i) the Congress receives
submitted under paragraph (1); or

the

report

(ii) the rule is published in the Federal
Register, if so published;
(B) if the Congress passes a joint resolution of
disapproval described in section 802 relating to the
rule, and the President signs a veto of such resolution,
the earlier date—
(i) on which either House of Congress votes
and fails to override the veto of the President; or
(ii) occurring 30 session days after the date
on which the Congress received the veto and
objections of the President; or
(C) the date the rule would have otherwise
taken effect, if not for this section (unless a joint

Appendix D-3
resolution of disapproval under section 802 is
enacted).
(4) Except for a major rule, a rule shall take effect
as otherwise provided by law after submission to
Congress under paragraph (1).
(5) Notwithstanding paragraph (3), the effective
date of a rule shall not be delayed by operation of this
chapter beyond the date on which either House of
Congress votes to reject a joint resolution of
disapproval under section 802.
(b)(1) A rule shall not take effect (or continue), if
the Congress enacts a joint resolution of disapproval,
described under section 802, of the rule.
(2) A rule that does not take effect (or does not
continue) under paragraph (1) may not be reissued in
substantially the same form, and a new rule that is
substantially the same as such a rule may not be
issued, unless the reissued or new rule is specifically
authorized by a law enacted after the date of the joint
resolution disapproving the original rule.
(c)(1) Notwithstanding any other provision of this
section (except subject to paragraph (3)), a rule that
would not take effect by reason of subsection (a)(3)
may take effect, if the President makes a
determination under paragraph (2) and submits
written notice of such determination to the Congress.
(2) Paragraph (1) applies to a determination
made by the President by Executive order that the
rule should take effect because such rule is—
(A) necessary because of an imminent threat
to health or safety or other emergency;

Appendix D-4
(B) necessary for the enforcement of criminal
laws;
(C) necessary for national security; or
(D) issued
pursuant
to
any
statute
implementing an international trade agreement.
(3) An exercise by the President of the authority
under this subsection shall have no effect on the
procedures under section 802 or the effect of a joint
resolution of disapproval under this section.
(d)(1) In addition to the opportunity for review
otherwise provided under this chapter, in the case of
any rule for which a report was submitted in
accordance with subsection (a)(1)(A) during the period
beginning on the date occurring—
(A) in the case of the Senate, 60 session days,
or
(B) in the case of the House of Representatives, 60 legislative days,
before the date the Congress adjourns a session of
Congress through the date on which the same or
succeeding Congress first convenes its next session,
section 802 shall apply to such rule in the succeeding
session of Congress.
(2)(A) In applying section 802 for purposes of such
additional review, a rule described under paragraph
(1) shall be treated as though—
(i)
such rule were published in the Federal
Register (as a rule that shall take effect) on—
(I) in the case of the Senate, the 15th session
day, or

Appendix D-5
(II) in the case of the House of
Representatives, the 15th legislative day, after the
succeeding session of Congress first convenes; and
(ii) a report on such rule were submitted to
Congress under subsection (a)(1) on such date.
(B) Nothing in this paragraph shall be construed
to affect the requirement under subsection (a)(1) that
a report shall be submitted to Congress before a rule
can take effect.
(3) A rule described under paragraph (1) shall
take effect as otherwise provided by law (including
other subsections of this section).
(e)(1) For purposes of this subsection, section 802
shall also apply to any major rule promulgated
between March 1, 1996, and the date of the enactment
of this chapter.
(2) In applying section 802 for purposes of
Congressional review, a rule described under
paragraph (1) shall be treated as though—
(A) such rule were published in the Federal
Register on the date of enactment of this chapter; and
(B) a report on such rule were submitted to
Congress under subsection (a)(1) on such date.
(3) The effectiveness of a rule described under
paragraph (1) shall be as otherwise provided by law,
unless the rule is made of no force or effect under
section 802.
(f) Any rule that takes effect and later is made of
no force or effect by enactment of a joint resolution
under section 802 shall be treated as though such rule
had never taken effect.

Appendix D-6
(g) If the Congress does not enact a joint
resolution of disapproval under section 802 respecting
a rule, no court or agency may infer any intent of the
Congress from any action or inaction of the Congress
with regard to such rule, related statute, or joint
resolution of disapproval.
5 U.S.C. § 802.
Congressional disapproval procedure
(a) For purposes of this section, the term “joint
resolution” means only a joint resolution introduced in
the period beginning on the date on which the report
referred to in section 801(a)(1)(A) is received by
Congress and ending 60 days thereafter (excluding
days either House of Congress is adjourned for more
than 3 days during a session of Congress), the matter
after the resolving clause of which is as follows: “That
Congress disapproves the rule submitted by the
__________ relating to __________, and such rule shall
have no force or effect.” (The blank spaces being
appropriately filled in).
(b)(1) A joint resolution described in subsection (a)
shall be referred to the committees in each House of
Congress with jurisdiction.
(2) For purposes of this section, the term
“submission or publication date” means the later of
the date on which—
(A) the Congress receives
submitted under section 801(a)(1); or

the

report

(B) the rule is published in the Federal
Register, if so published.

Appendix D-7
(c) In the Senate, if the committee to which is
referred a joint resolution described in subsection (a)
has not reported such joint resolution (or an identical
joint resolution) at the end of 20 calendar days after
the submission or publication date defined under
subsection (b)(2), such committee may be discharged
from further consideration of such joint resolution
upon a petition supported in writing by 30 Members
of the Senate, and such joint resolution shall be placed
on the calendar.
(d)(1) In the Senate, when the committee to which
a joint resolution is referred has reported, or when a
committee is discharged (under subsection (c)) from
further consideration of a joint resolution described in
subsection (a), it is at any time thereafter in order
(even though a previous motion to the same effect has
been disagreed to) for a motion to proceed to the
consideration of the joint resolution, and all points of
order against the joint resolution (and against
consideration of the joint resolution) are waived. The
motion is not subject to amendment, or to a motion to
postpone, or to a motion to proceed to the
consideration of other business. A motion to
reconsider the vote by which the motion is agreed to
or disagreed to shall not be in order. If a motion to
proceed to the consideration of the joint resolution is
agreed to, the joint resolution shall remain the
unfinished business of the Senate until disposed of.
(2) In the Senate, debate on the joint resolution,
and on all debatable motions and appeals in
connection therewith, shall be limited to not more
than 10 hours, which shall be divided equally between
those favoring and those opposing the joint resolution.
A motion further to limit debate is in order and not

Appendix D-8
debatable. An amendment to, or a motion to postpone,
or a motion to proceed to the consideration of other
business, or a motion to recommit the joint resolution
is not in order.
(3) In the Senate, immediately following the
conclusion of the debate on a joint resolution described
in subsection (a), and a single quorum call at the
conclusion of the debate if requested in accordance
with the rules of the Senate, the vote on final passage
of the joint resolution shall occur.
(4) Appeals from the decisions of the Chair
relating to the application of the rules of the Senate to
the procedure relating to a joint resolution described
in subsection (a) shall be decided without debate.
(e) In the Senate the procedure specified in
subsection (c) or (d) shall not apply to the
consideration of a joint resolution respecting a rule—
(1) after the expiration of the 60 session days
beginning with the applicable submission or
publication date, or
(2) if the report under section 801(a)(1)(A)
was submitted during the period referred to in section
801(d)(1), after the expiration of the 60 session days
beginning on the 15th session day after the succeeding
session of Congress first convenes.
(f) If, before the passage by one House of a joint
resolution of that House described in subsection (a),
that House receives from the other House a joint
resolution described in subsection (a), then the
following procedures shall apply:
(1) The joint resolution of the other House
shall not be referred to a committee.

Appendix D-9
(2) With respect to a joint resolution
described in subsection (a) of the House receiving the
joint resolution—
(A) the procedure in that House shall be
the same as if no joint resolution had been received
from the other House; but
(B) the vote on final passage shall be on
the joint resolution of the other House.
(g) This section is enacted by Congress—
(1) as an exercise of the rulemaking power of
the Senate and House of Representatives,
respectively, and as such it is deemed a part of the
rules of each House, respectively, but applicable only
with respect to the procedure to be followed in that
House in the case of a joint resolution described in
subsection (a), and it supersedes other rules only to
the extent that it is inconsistent with such rules; and
(2) with full recognition of the constitutional
right of either House to change the rules (so far as
relating to the procedure of that House) at any time,
in the same manner, and to the same extent as in the
case of any other rule of that House.
5 U.S.C. § 805. Judicial review
No determination, finding, action, or omission
under this chapter shall be subject to judicial review.

Appendix D-10
5 U.S.C. § 806. Applicability; severability
(a) This chapter shall apply notwithstanding any
other provision of law.
(b) If any provision of this chapter or the
application of any provision of this chapter to any
person or circumstance, is held invalid, the
application of such provision to other persons or
circumstances, and the remainder of this chapter,
shall not be affected thereby.

Appendix E-1
Filed 4/10/2018
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
KANSAS NATURAL
RESOURCE COALITION,
Plaintiff,
v.
U.S. DEPARTMENT OF
CIVIL ACTION
INTERIOR; RYAN ZINKE,
CASE NO. ________
in his official capacity as
Secretary of Interior; U.S.
FISH AND WILDLIFE
SERVICE; and GREG
SHEEHAN, in his official
capacity as Principal Deputy
Director of the U.S. Fish and
Wildlife Service,
Defendants.
COMPLAINT FOR DECLARATORY
AND INJUNCTIVE RELIEF
INTRODUCTION
1. To restore democratic accountability to the
federal
bureaucracy,
Congress
enacted
the
Congressional Review Act in 1996, requiring federal
agencies to submit every new rule they adopt to
Congress before the rule goes into effect. This gives
our elected representatives an opportunity to consider
the rule’s merits and, in the rare case that they
disagree with the agency, to disallow the rule.

Appendix E-2
2. Agency compliance with the Congressional
Review Act’s submission requirement has been spotty,
a problem that the Congressional Research Service,
Government Accountability Office, House Judiciary
Committee, and Chairman of the Senate
Subcommittee on Regulatory Affairs have warned
agencies about.
3. Enforcing a rule that has not been submitted
to Congress, as required, robs our elected
representatives of an opportunity to consider its
merits. But agency non-compliance has another, less
obvious consequence: According to the statute, a
rule—even a popular, beneficial, and noncontroversial rule—cannot be given legal effect until
it has been submitted. Thus, when an agency treats a
good, but unsubmitted, rule as if it were lawfully in
effect, it forces people to rely on the rule despite this
legal infirmity, creating unnecessary legal risk and
undermining the rule’s benefits.
4. Kansas Natural Resource Coalition (KNRC)
is an organization of county governments in western
Kansas that promotes local government participation
in federal and state policy on conservation and natural
resource issues. Of particular importance to KNRC is
the U.S. Fish and Wildlife Service’s Policy for
Evaluating Conservation Efforts When Making
Listing Decisions (PECE Rule), which is critical to the
agency’s implementation of the Endangered Species
Act. The PECE Rule provides the framework for
encouraging
states,
local
governments,
conservationists, and property owners to work
collaboratively on species conservation efforts,
rewarding those efforts by allowing them to avoid the

Appendix E-3
need to list a species under the Endangered Species
Act.
5. The PECE Rule has been particularly
important to the conservation of the lesser prairie
chicken. In 2013, KNRC developed a conservation
plan for the species, which its 32 member counties
adopted. KNRC’s conservation plan relies on the
PECE Rule to provide a key incentive for counties and
property owners to participate. Unfortunately, the
Service has not submitted the rule to Congress as
required by the Congressional Review Act. Although,
it is extremely unlikely that Congress would
disapprove of this important and beneficial rule, the
Congressional Review Act nonetheless forbids the rule
from being given lawful effect until it is submitted.
Therefore, the Service’s failure to submit the PECE
Rule undermines collaborative conservation efforts
that depend on the rule, including those led by KNRC
and its member counties.
6. Submission of the rule to Congress is agency
action unlawfully withheld or unreasonably delayed.
KNRC seeks a declaration that the Service has
violated the Congressional Review Act and
Administrative Procedure Act, and an injunction
requiring the agency to submit the PECE Rule to
Congress so that it may lawfully go into effect and be
relied upon.
JURISDICTION AND VENUE
7. This Court has subject matter jurisdiction
over this action pursuant to 28 U.S.C. § 1331 (federal
question jurisdiction); § 2201 (authorizing declaratory
relief); § 2202 (authorizing injunctive relief); and 5
U.S.C. § 702 (providing for judicial review of agency

Appendix E-4
actions unlawfully
delayed).

withheld

or

unreasonably

8. Venue in this district is predicated upon 5
U.S.C. § 703 and 28 U.S.C. § 1391(e)(1). A majority of
the lesser prairie chicken’s prime habitat is located in
western Kansas and the conservation efforts
contemplated in KNRC’s plan and encouraged by the
PECE Rule will occur there.
PARTIES
Plaintiff
9. Kansas Natural Resource Coalition is a
collaboration of Boards of County Commissioners
from western Kansas and Wichita. KNRC promotes
local government participation in federal and state
policy on conservation and natural resource issues.
Member county governments fund the organization,
and those counties’ commissioners govern it. KNRC
believes that local government is in the best position
to study, manage, and conserve natural resources,
while also respecting private property rights,
economic impacts, and other fundamental concerns. It
advocates counties taking a greater role in managing
natural resources and exercising an appropriate
influence on federal environmental decision-making.
KNRC has developed a plan for counties to study and
conserve the lesser prairie chicken, which its member
counties have adopted. But the ability for KNRC and
its member counties to implement that plan depends
on counties and property owners being able to rely on
the PECE Rule.
Defendants
10. The Department of Interior is an agency of
the United States. Congress has charged the

Appendix E-5
Department with administering the Endangered
Species Act for nonmarine species.
11. Ryan Zinke is Secretary of the Department of
Interior.
He
oversees
the
Department’s
administration of the Endangered Species Act and is
sued in his official capacity only.
12. The United States Fish and Wildlife Service
is an agency of the Department of Interior. The
Service has been delegated responsibility by the
Secretary of the Department of Interior for the day-today administration of the Endangered Species Act,
including the listing of threatened and endangered
nonmarine species.
13. Greg Sheehan is the Principal Deputy
Director and Acting Director of the United States Fish
and Wildlife Service. He oversees the Service’s
administration of the Endangered Species Act and is
sued in his official capacity only.
LEGAL FRAMEWORK
The Congressional Review Act
14. The Senate and House sponsors of the
Congressional Review Act filed identical statements
in the records of both Houses of Congress explaining
the purpose of the statute. See 142 Cong. Rec. S3683
(Apr. 18, 1996) (joint statement of Sens. Nickles, Reid,
and Stevens); 142 Cong. Rec. 6922-6926 (1996)
(statement of Rep. Henry Hyde for the House sponsors
and committees of jurisdiction).1 As that statement
explains, the Congressional Review Act was enacted
in recognition that excessive delegation had upset the
1 The House and Senate sponsors’ statements are identical except
for a brief introductory remark in each.

Appendix E-6
“delicate balance between the appropriate roles of the
Congress in enacting laws, and the Executive Branch
in implementing those laws. This legislation will help
to redress the balance, reclaiming for Congress some
of its policymaking authority, without at the same
time requiring Congress to become a super regulatory
agency.” 142 Cong. Rec. at S3683.
15. By reclaiming that authority, Congress was
restoring democratic accountability to the rulemaking
process. “Rules can be surprisingly different from the
expectations of Congress or the public. Congressional
review gives the public the opportunity to call the
attention of politically accountable, elected officials to
concerns about new agency rules. If these concerns are
sufficiently serious, Congress can stop the rule.” Id. at
S3684.
16. To effect these purposed, the Congressional
Review Act requires agencies to submit every new rule
to Congress for review before it can go into effect. The
Congressional Review Act provides: “Before a rule can
take effect, the Federal agency promulgating such rule
shall submit to each House of the Congress and to the
Comptroller General a report containing—(i) a copy of
the rule; (ii) a concise general statement relating to
the rule, including whether it is a major rule; and
(iii) the proposed effective date of the rule.” 5 U.S.C.
§ 801(a)(1)(A) (emphasis added). The failure to submit
good rules puts those who rely on them in a catch-22:
they must rely on the rules but do so at their peril or
subject to substantial legal uncertainty and risk.
17. The submission of a rule gives Congress an
opportunity to review and either (1) do nothing, in
which case the rule goes into effect; or (2) disapprove
the rule through a joint resolution. When an agency

Appendix E-7
fails to submit a rule, it wrongfully denies our elected
representatives this opportunity, which the
Congressional Review Act punishes by preventing the
rule—even a popular rule that Congress would
undoubtedly approve—from being lawfully in effect.
18. The Congressional Review Act defines “rule”
broadly to ensure democratic oversight over much of
what administrative agencies do. A rule is “the whole
or a part of an agency statement of general or
particular applicability and future effect designed to
implement, interpret, or prescribe law or policy or
describing the organization, procedure, or practice
requirements of an agency.” 5 U.S.C. § 551(4); 5 U.S.C.
§ 804(3)(C). It has narrow exceptions for rules “of
particular applicability,” “relating to agency
management or personnel,” and “of agency
organization, procedure, or practice that does not
substantially affect the rights or obligations of nonagency parties.” 5 U.S.C. § 804(3)(C).
19. Despite the Congressional Review Act’s clear
mandate that agencies must submit every new rule to
Congress, and the clear consequences for failing to do
so, agency compliance has been lacking. Ten years
after the statute was enacted, the Government
Accountability Office studied its impact, finding that
agency compliance “was inconsistent” but appeared to
be improving.2 In 2009, a Congressional Research
Service report found that agencies had failed to
2 J. Christopher Mihm, Government Accountability Office,
Testimony Before the Subcommittee on Commercial and
Administrative Law, Committee on the Judiciary, House of
Representatives, Federal Rulemaking: Perspectives on 10 Years
of Congressional Review Act Implementation (Mar. 30, 2006),
available at https://www.gao.gov/assets/120/113245.pdf.

Appendix E-8
submit more than 1,000 substantive final rules
adopted between 1999 and 2009.3 More recent studies
have reached similar conclusions.4 Recognizing the
scope and severe consequences of noncompliance, the
House Judiciary Committee held a hearing on
September 28, 2016 to study the problem.5 More
recently, the Chairman of the Senate Subcommittee
on Regulatory Affairs sent a letter to the Office of
Management and Budget expressing concern about
the
consequences
of
widespread
agency
6
noncompliance.
The Endangered Species Act
20. The Endangered Species Act provides for the
listing of endangered and threatened species and
3 See Curtis W. Copeland, Congressional Research Service,
Congressional Review Act: Rules Not Submitted to GAO and
Congress (Dec. 29, 2009), available at https://www.redtaperoll
back.com/wp-content/uploads/2017/04/ CRS122909.pdf.

See Philip A. Wallach & Nicholas W. Zeppos, Brookings
Institute Report, How powerful is the Congressional Review Act?
(Apr. 4, 2017), available at https://www.brookings.edu/research/
how-powerful-is-the-congressional-review-act/ (finding that,
among major substantive rules alone, 348 rules were not
submitted).
4

The Judiciary Committee’s link to a video of the hearing,
“Rulemakers Must Follow the Rules, Too: Oversight of Agency
Compliance with the Congressional Review Act,” and the
witnesses’ written testimony is available at https://judiciary.
house.gov/hearing/rulemakers-must-follow-rules-oversightagencycompliance-congressional-review-act/.
5

Letter from Senator James Lankford to Director Mick
Mulvaney Regarding the Congressional Review Act,
https://pacificlegal.org/wp-content/uploads/2018/04/2017-12-05Sen-Lankford-to-Director-Mulvaney-re-CRA-GuidanceDocuments.pdf.
6

Appendix E-9
imposes federal regulations to address threats to
those species. 16 U.S.C. § 1531, et seq. Endangered
species are currently in danger of extinction
throughout all or a significant portion of their range;
threatened species are likely to become endangered
within the foreseeable future. 16 U.S.C. § 1532(6),
(20).
21. To determine whether a species merits
listing, the Fish and Wildlife Service must consider
five factors: (1) the present or threatened destruction,
modification, or curtailment of its habitat or range;
(2) overutilization for commercial, recreational,
scientific, or educational purposes; (3) disease or
predation; (4) the inadequacy of existing regulatory
mechanisms; or (5) other natural or manmade factors
affecting its continued existence. 16 U.S.C. § 1533(a).
22. Several significant federal regulatory
burdens follow from a species’ listing: “Take” of listed
species is forbidden, which is a broad prohibition of
any activity that harms a species, even ordinary land
use activities. Critical habitat is designated,
triggering scrutiny of any use of the designated land
that requires federal involvement, including financing
and permitting. And federal agencies must
proactively protect species, including by consulting
with the Service to ensure that any activities they
carry out will not jeopardize the species.
23. Although the Endangered Species Act
establishes several federal regulatory mechanisms to
protect species, it acknowledges that “encouraging the
States and other interested parties . . . to develop and
maintain conservation programs . . . is a key . . . to
better safeguarding, for the benefit of all citizens, the

Appendix E-10
Nation’s heritage in fish, wildlife, and plants.” 16
U.S.C. § 1531(a)(5).
BACKGROUND
The PECE Rule
24. In 2003, the Service developed the PECE
Rule to encourage states and private parties to
develop more effective, collaborative conservation
plans in lieu of the agency listing species under the
Endangered Species Act. 68 Fed. Reg. 15,100, 15,102
(Mar. 28, 2003). “Early conservation helps preserve
management options, minimizes the cost of reducing
threats to a species, and reduces the potential for land
use restrictions in the future.” 68 Fed. Reg. at 15,103.
“Addressing the needs of species before the regulatory
protections associated with listing under the Act come
into play often allows greater management flexibility
in the actions necessary to stabilize or restore these
species and their habitats.” Id.
25. In finalizing the PECE Rule, the Service
acknowledged that one of its chief purposes was to
“provide[] information to the groups interested in
developing agreements or plans that would contribute
to making it unnecessary for the Services to list a
species under the Act.” 68 Fed. Reg. at 15,101.
Providing certainty to those groups is essential to
encouraging effective, voluntary conservation efforts.
68 Fed. Reg. at 15,104 (“It is our intention and belief
that the PECE criteria will actually increase the
voluntary participation in conservation agreements
by increasing the likelihood that parties’ voluntary
efforts and commitments . . . will play a role in a
listing decision.”).

Appendix E-11
26. The PECE Rule establishes two criteria for
evaluating state and private conservation plans:
(1) The certainty that the conservation efforts will be
implemented and (2) the certainty that the efforts will
be effective. 68 Fed. Reg. at 15,101. The rule provides
further guidance about the factors that inform both
considerations.
27. Providing
certainty
to
the
groups
undertaking these conservation efforts is essential
because, as the Service’s Federal Register notice
acknowledged, preparing a conservation plan requires
the commitment of vast resources to the effort. 68 Fed.
Reg. at 15,101 (estimating “an average of 2,500
person-hours to complete a conservation agreement”).
28. The PECE Rule does not appear in either the
Government Accountability Office’s database of rules
submitted under the Congressional Review Act nor in
Congress’ database of executive communications. Any
submitted rule would appear in both. Thus, the PECE
Rule was not submitted to Congress as required by the
Congressional Review Act.
29. Despite failing to submit the PECE Rule to
Congress, the Fish and Wildlife Service has treated it
as in effect. Relying on the rule, states, local
governments, property owners, and conservationists
have expended substantial resources to develop
conservation plans for the lesser prairie chicken,
dunes sagebrush lizard, gopher tortoise, and many
other species.
30. Despite the significant resources invested in
conservation in reliance on the PECE Rule, the
Service has failed to comply with its mandatory duty
to submit the rule so that it can lawfully be in effect

Appendix E-12
and conservation participants can truly rely on it.
This puts participants in a bind: they must show that
their plans are certain to be implemented and
effective but the failure to submit the PECE Rule
undermines the incentives necessary to achieve that
certainty.
The PECE Rule’s Role in Promoting
Lesser Prairie Chicken Conservation
31. The lesser prairie chicken is a small species
of grouse found in Kansas, Colorado, Oklahoma,
Texas, and New Mexico. In 2012, the Service proposed
to list the species as threatened under the
Endangered Species Act.
32. Because a listing would entail severe
regulatory restrictions disruptive to the affected
states’ economies, states, property owners, and
conservation groups worked with the Western
Association of Fish and Wildlife Agencies to develop
and implement a range-wide conservation plan for the
species. They did so relying on the PECE Rule, hoping
that their effort would succeed in avoiding the need to
list the species.
33. The range-wide plan steers substantial
resources to studying the lesser prairie chicken and
protecting it. It also coordinates voluntary
conservation efforts across all five states, with the
goal of minimizing and mitigating impacts to habitat
while raising funds to acquire, permanently protect,
and improve habitat for the species. Those efforts are
paying off. In the five years since the plan was
developed, the species’ population has nearly doubled,
from a low of 19,000 in 2013 to more than 33,000 in
2017. See Lyman McDonald, et al., Western

Appendix E-13
Association of Fish and Wildlife Agencies, Range-Wide
Population Size of the Lesser Prairie-Chicken 2012 to
2017 (Sept. 5, 2017).7
34. Despite this conservation effort, the Service
decided to list the species in 2014. 79 Fed. Reg. 19,974
(Apr. 10, 2014).
35. Participants in the conservation plan
challenged that listing as violating the PECE Rule.
They argued that the Service had assumed—
irrationally and contrary to the PECE Rule—that the
conservation plan would not be implemented if the
species were not listed. KNRC participated in that
litigation as amicus, arguing that the Service’s
violation of the PECE threatened its conservation
efforts. See Mot. of KNRC for Leave to File Amicus
Brief, Permian Basin Petroleum Assoc. v. Dept. of
Interior, Case No. 14-cv-00050, Doc. No. 65 (W.D. Tex.
filed May 6, 2015).
36. On September 1, 2015, the District Court for
the Western District of Texas struck down the listing
decision for violating the PECE Rule. Permian Basin
Petroleum Association v. Department of Interior, 127
F. Supp. 3d 700 (W.D. Tex. 2015). The Court explained
that the Service’s unexplained assumption that
conservation efforts would be abandoned if the species
were not listed conflicted with the PECE Rule and
reflected an unexplained and irrational change of
position.
37. Because of that decision, the Service
withdrew the listing of the lesser prairie chicken. 81
Fed. Reg. 47,047 (July 20, 2016). Since then, the
7 http://lpcinitiative.org/wpcontent/uploads/LEPCAerialSurvey2017Report.pdf.

Appendix E-14
voluntary conservation efforts prompted by the PECE
Rule have continued.
38. However, petitions to relist the species were
subsequently filed and the Service is currently
reviewing them. 81 Fed. Reg. 86,315 (Nov. 30, 2016).
As the prior listing decision and related litigation
show, the PECE Rule will play a critical role in
resolving
those
petitions
and
encouraging
conservation of the species.
KNRC’s Efforts to Assist Counties in Studying
and Conserving the Lesser Prairie Chicken
39. Recognizing the impact a decision to list the
lesser prairie chicken would have on the ability of
Kansas and its counties to effectively manage natural
resources, KNRC developed a Lesser Prairie Chicken
Conservation, Management and Study Plan in 2013,
which all of its member counties adopted.8 A year
later, that plan garnered the attention of the
Congressional Working Group on the Endangered
Species Act.9 KNRC’s efforts are particularly
important to conserving the lesser prairie chicken
because the majority of the species’ population and
quality habitat are in Kansas.
40. KNRC’s conservation plan provides the
“framework, policies and technical needs to maintain
current and enhance future conservation of the Lesser
Prairie Chicken” in Kansas. “It provides the
Available at https://knrc.org/Files/LPC/LPC_CONSERVA
TION_PLAN_REVISED _FINAL_101413-1.pdf.

8

See Endangered Species Act Congressional Working Group,
Report, Findings and Recommendations 46 (Feb. 4, 2014),
https://valadao.house.gov/uploadedfiles/esaworkinggroupreport
andrecommendations.pdf.
9

Appendix E-15
mechanism, process, and context through which
meaningful conservation efforts may be identified,
assessed, encouraged, or even codified within
individual Counties.” The plan acknowledges “positive
engagement of local governments and private
landholders is necessary for any conservation
program to be effective.” Consequently, the plan
proposes county-level options for “immediate, on-theground conservation actions, suggests collaborative,
peer-review of the existing body of scientific data, and
outlines meaningful study actions to address scientific
data gaps.”
41. The plan calls for counties to develop and
implement policies to control invasive species that
encroach on lesser prairie chicken habitat, to promote
sustainable grazing, to better mark fences to prevent
entanglement or injury, and to encourage habitat
restoration. Recognizing that the plan will be most
effective if it adapts with the 5-state range-wide plan
discussed above, KNRC’s plan also calls on counties to
ensure compatibility with that larger plan.
42. Under the PECE Rule, the Service must
consider KNRC’s plan, along with the broader rangewide plan, in determining whether the lesser prairie
chicken should be listed. However, to provide the
certainty that the conservation efforts called for in the
plan will be implemented, participating counties and
property owners must have confidence that the PECE
Rule is lawfully in effect.
43. The Service’s unlawful failure to submit the
rule to Congress as required by the Congressional
Review Act harms KNRC, its member counties, and
participating property owners by putting them in a
catch-22: the PECE Rule demands that KNRC prove

Appendix E-16
that its conservation plan is certain to be implemented
and effective. But the failure to submit the PECE
Rule, and thus the inability to rely on it, undermines
the incentives for counties and property owners to
participate in KNRC’s plan reducing the certainty
that it will be implemented and effective.
DECLARATORY AND INJUNCTIVE
RELIEF IS APPROPRIATE
44. All preceding paragraphs are realleged and
incorporated herein by reference.
45. An actual and substantial controversy exists
between KNRC and the Service over its failure to
submit the PECE Rule to Congress as required by the
Congressional Review Act.
46. This case is justiciable because the failure to
submit the rule is agency action unlawfully withheld
or unreasonably delayed, which has caused and will
continue to cause immediate and concrete injury to
KNRC. The Service’s treatment of the PECE Rule as
lawfully in effect despite failing to submit it to
Congress forces KNRC, its member counties, and
property owners participating in the conservation
effort to rely on the rule. The Service’s failure to
comply with a clear mandatory duty, however, creates
substantial regulatory uncertainty and litigation risk,
which in turn undermines KNRC’s conservation plan.
47. If the Department’s failure to comply with
the Congressional Review Act is not declared unlawful
and an injunction issued requiring the rule’s
submission, KNRC will continue to be irreparably
harmed, especially as the Service once again considers
listing the lesser prairie chicken.

Appendix E-17
48. KNRC has no other plain, speedy, and
adequate remedy at law.
49. KNRC’s action is ripe and timely.
50. Therefore, declaratory and injunctive relief
is appropriate to resolve this controversy.
CLAIM FOR RELIEF
Agency Action Unlawfully Withheld
or Unreasonably Delayed
(5 U.S.C. § 706)
51. The PECE Rule is a “rule” for purposes of the
Congressional Review Act. 5 U.S.C. § 551(4).
52. The PECE Rule was not submitted to
Congress as required by the Congressional Review
Act. See 5 U.S.C. § 801(a)(1)(A). It is extremely
unlikely Congress would disapprove of this important
and beneficial rule, but it must nonetheless submitted
so that it may go into effect.
53. Submission under the Congressional Review
Act is “agency action unlawfully withheld or
unreasonably delayed.” 5 U.S.C. § 706.
54. Therefore, the Service must submit the
PECE Rule to Congress so that the rule may go into
effect and states, counties, property owners, and
conservationists can rely on it as they undertake
conservation efforts.
PRAYER FOR RELIEF
Plaintiffs seek judgment against Defendants as
follows:

Appendix E-18
1. For a declaration that submission of the rule
under the Congressional Review Act is agency action
unlawfully withheld or unreasonably delayed;
2. For a declaration that Defendants must
submit the rule to Congress without delay;
3. For an injunction requiring Defendants to
submit the rule to Congress under the Congressional
Review Act;
4. For an award of KNRC’s cost of litigation,
including, but not limited to, reasonable attorney’s
fees and expert witness fees, and fees and costs
pursuant to 28 U.S.C. § 2412, or other applicable
authority; and
5. For such other relief as the Court may deem
just and proper.
DATED: April 11, 2018.
Respectfully submitted,
s/ Kenny Estes
KENNY ESTES
Kansas Bar No. 24226
Attorney for Plaintiff Kansas Natural
Resource Coalition
304 North Main Street
P.O. Box 324
Lakin, Kansas 67860
Telephone: (620) 355-7547
Email: keinkeco@gmail.com

Appendix E-19
*JONATHAN WOOD,
DC Bar 1045015
*TODD F. GAZIANO,
Tex. Bar 07742200
Pacific Legal Foundation
3033 Wilson Blvd., Suite 700
Arlington, Virginia 22201
Telephone: (202) 888-6881
Facsimile: (916) 419-7747
E-mail: jwood@pacificlegal.org
E-mail: tgaziano@pacificlegal.org
*JEFFREY W. McCOY,
Cal. Bar 317377
*CALEB R. TROTTER,
Cal. Bar 305195
*KAYCEE M. ROYER,
Cal. Bar 317397
Pacific Legal Foundation
930 G Street
Sacramento, California 95814
Telephone: (916) 419-7111
Facsimile: (916) 419-7747
E-mail: jmccoy@pacificlegal.org
E-mail: ctrotter@pacificlegal.org
E-mail: kroyer@pacificlegal.org
*Pro Hac Vice Pending
Attorneys for Plaintiff
Kansas Natural Resource Coalition

